<html>
<title> - NOMINATION OF FRANK T. BROGAN TO BE ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY EDUCATION</title>
<body><pre>[Senate Hearing 115-732]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-732
 
                     NOMINATION OF FRANK T. BROGAN
                       TO BE ASSISTANT SECRETARY
                             FOR ELEMENTARY
                        AND SECONDARY EDUCATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE NOMINATION OF FRANK T. BROGAN, OF PENNSYLVANIA, TO BE 
ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY EDUCATION, DEPARTMENT 
                              OF EDUCATION

                               __________

                            JANUARY 25, 2018

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   




        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 28-515                 WASHINGTON : 2020        
        
        
        
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
                  
MICHAEL B. ENZI, Wyoming              PATTY MURRAY, Washington
RICHARD BURR, North Carolina          BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia               ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky                   MICHAEL F. BENNET, Colorado
SUSAN M. COLLINS, Maine               TAMMY BALDWIN, Wisconsin
BILL CASSIDY, M.D., Louisiana         CHRISTOPHER S. MURPHY, Connecticut
TODD YOUNG, Indiana                   ELIZABETH WARREN, Massachusetts
ORRIN G. HATCH, Utah                  TIM KAINE, Virginia
PAT ROBERTS, Kansas                   MAGGIE HASSAN, New Hampshire
LISA MURKOWSKI, Alaska                TINA SMITH, Minnesota
TIM SCOTT, South Carolina             DOUG JONES, Alabama

                   
                                     
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                 Evan Schatz, Democratic Staff Director
             John Righter, Democratic Deputy Staff Director
             
             
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       THURSDAY, JANUARY 25, 2018

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, Opening statement.........................     1
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, Opening statement...............................     3
Nelson, Hon., Bill, a U.S. Senator from the State of Florida.....     5

                                Witness

Brogan, Frank T., Nominee to be Assistant Secretary for 
  Elementary and Secondary Education, Department of Education....     6
    Prepared statement...........................................     7

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
Alexander, Hon. Lamar:
  Letters of Support for the nomination of Frank Brogan:

    Council of Chief State School Officers (CCSS)................    22
    Eduardo J. Padron, President of Miami Dade College...........    23
    Elizabeth A. Bolden, President & CEO of Pennsylvania 
      Commission for Community Colleges..........................    23
    Florida Chamber of Commerce..................................    24
    Grace Williams, Principal/Owner of Parsons Christian Academy.    25
    Jeb Bush, Former Governor of Florida.........................    25
    John F. Kirtley, Chairman of Step Up For Students............    26
    John Thrasher, President of Florida State University.........    26
    Karen M. Whitney, Interim Chancellor of Pennsylvania State 
      System of Higher Education.................................    27
    Marshall M. Criser, III, Chancellor of the State University 
      System of Florida..........................................    27
    Michael Brawer, CEO and Executive Director of the Association 
      of Florida Colleges (AFC)..................................    28
    Pam Stewart, Florida's Commissioner of Education.............    29
    Pedro A. Rivera, Pennsylvania's Secretary of Education.......    29
    State Higher Education Executive Officers Association (SHEEO)    30
    Toni Jennings, Former Lt. Governor of Florida................    30
    William J. Montford, III, Florida State Senator..............    31

                         QUESTIONS AND ANSWERS

Response by Frank T. Brogan to questions of:
    Senator Collins..............................................    31
    Senator Murkowski............................................    31
    Senator Young................................................    33
    Senator Murray...............................................    33
    Senator Casey................................................    38
    Senator Warren...............................................    41
    Senator Hassan...............................................    46


                     NOMINATION OF FRANK T. BROGAN


                       TO BE ASSISTANT SECRETARY


                             FOR ELEMENTARY


                        AND SECONDARY EDUCATION
                              ----------                              


                       Thursday, January 25, 2018

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
Chairman of the Committee, presiding.
    Present: Senators Alexander [presiding], Murray, Bennet, 
Murphy, Warren, Kaine, Hassan, Smith, and Jones.

                 OPENING STATEMENT OF SENATOR ALEXANDER

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Today's hearing is on Frank Brogan, the nominee to serve as 
the Assistant Secretary of Elementary and Secondary Education.
    Senator Murray and I will each have an opening statement, 
then Senator Nelson will introduce Mr. Brogan, and after his 
testimony Senators will each have 5 minutes of questions.
    Governor Brogan, you come with impressive qualifications 
for the role to which you have been nominated, and we are 
grateful for your willingness to serve.
    You come to this position with nearly every possible 
educational perspective.
    You were the first in your family to attend college, 
earning a Bachelor's degree in education. Then you went on to 
attend graduate school, earning a Master's degree in education.
    You served as an elementary school teacher, principal, and 
superintendent, and as Florida's Commissioner of Education and 
Lieutenant Governor.
    You also served as Chancellor of the Florida Board of 
Governors, and as President of Florida Atlantic University, and 
prior to your most recent role, served as Chancellor of the 
Pennsylvania State System of Higher Education.
    Your official nomination was received on December 19 by the 
Senate.
    On January 2nd, this Committee received a letter from the 
Office of Government Ethics, which carefully reviewed your 
financial information and found that you are in compliance with 
applicable laws and regulations governing conflicts of 
interest.
    In accordance with our Committee rules, you've submitted 
your Committee paperwork on January 16.
    You have offered to meet with every Senator on this 
Committee.
    As Assistant Secretary for Elementary and Secondary 
Education, your job will be to implement laws as Congress wrote 
them, including the law we wrote fixing No Child Left Behind. 
This is an especially important law to the Members of this 
Committee. We held 27 hearings, spent countless hours, both 
Members and their staffs, working out our differences and 
reaching a consensus. We held a 3-day markup where we 
considered 57 amendments, and we approved it 22 to 0. It passed 
the Senate 85 to 12 after more debate, more amendments, and a 
conference committee with the House.
    In the end, we produced a law that reflected our consensus 
at the start: Continue the law's important measurements of 
academic progress of students but restore to states, school 
districts, classroom teachers and parents the responsibility 
for deciding what to do about improving student achievement. 
This change should produce fewer tests and more appropriate 
ways to measure student achievement.
    Under ESSA, the Every Student Succeeds Act, in order to 
receive $15.5 billion in Federal Title I funding, every state 
must submit its Title I plans to the Department of Education 
that sets goals for that state's students and shows how the 
states will hold schools accountable for their performance.
    Today, states are in the process of getting their plans 
approved, or have gotten their plans approved and are beginning 
to implement them.
    Every state has submitted a state plan and the Department 
has approved 35, including the District of Columbia and Puerto 
Rico.
    Mr. Brogan, you will be overseeing the approval of the 
remaining state plans, and you will be monitoring and 
evaluating whether the states are doing what they said they 
would do, if you are confirmed, which I hope you will be.
    While the state plans are important, it is implementation 
of them that is crucial.
    I commend the work that Secretary DeVos and her staff have 
already done in approving these plans. She is charting new 
territory, approving plans that give states dramatic new 
freedom to set goals and hold students accountable. And I 
believe she has been following the law, appropriately balancing 
the law's flexibility and its guardrails.
    I would note that she deserves particular credit for 
implementing the new law without the nominee for Deputy 
Education Secretary, General Mitchell Zais, the nominee for 
General Counsel, Carlos Muniz, and the nominee for Assistant 
Secretary for Planning, Evaluation, and Policy Development, 
James Blew. We held hearings on those nominees in September and 
in November, yet they're not yet confirmed.
    Last week Senator Murray raised concerns about state plans 
being approved that did not follow the law. My staff have 
looked at the state plans and think the plans do follow the 
law, so we have asked for specific details. Senator Murray has 
given me some information today to identify which states are a 
problem, what provisions she believes they might have violated. 
Secretary DeVos has offered to meet with Senator Murray and me, 
and we're going to schedule that right away. We worked together 
to create this bipartisan success, so I want to take any 
concerns seriously.
    The Secretary, the peer review panels, and the career 
lawyers at the Department have reviewed the state plans and 
they have not raised any concerns that I'm aware of. Requests 
for clarification from states were done in calls and feedback 
letters to improve the plans.
    Secretary DeVos has said she would like to meet with us to 
discuss the specifics of any remaining concerns. As I said, we 
will schedule that soon.
    I would also urge the Senate to confirm these nominees so 
that we have more people to help the Secretary implement the 
law the way we wrote it.
    I look forward to hearing more from you today.
    Senator Murray.

                  OPENING STATEMENT OF SENATOR MURRAY

    Senator Murray. Thank you very much, Chairman Alexander.
    Mr. Brogan, thank you for your willingness to serve as 
Assistant Secretary for Elementary and Secondary Education. 
This role is critically important and, if confirmed, you will 
be responsible for overseeing the implementation of our 
Nation's K-12 law, the Every Student Succeeds Act.
    As you know, in 2015, Chairman Alexander and I agreed and, 
in fact, many people around the country believed that the No 
Child Left Behind law was badly broken and needed to be fixed. 
It relied on a one-size-fits-all mandate and failed to provide 
struggling schools with the resources they needed to improve.
    We worked together to break through some partisan gridlock 
here and negotiated a bipartisan education law, and we agreed 
that states should have more flexibility, but that doesn't mean 
that we gave states a blank check. We also agreed on strong 
Federal guardrails to identify struggling students in schools 
so they can get the support that they need.
    However, now that the law is passed and beginning to be 
implemented, I am very concerned that the Department of 
Education is approving state plans that do not comply with all 
of ESSA's Federal guardrails. Chairman Alexander and I agreed 
on many things when we were writing ESSA, and I was glad to 
hear him say last week that if I had concerns with the 
Department's implementation, then he had concerns, and I'm very 
glad now that Secretary DeVos is listening to us and just let 
us know today that she's offered to meet with us to discuss 
this. I'm hoping that that means she's ready to take action to 
correct the problems we see, because it is a very important 
first step.
    I'm confident we can work together and with Mr. Brogan if 
he is confirmed to ensure the Department is providing states 
with the feedback and guidance required in the law. We worked 
in good faith to negotiate ESSA, and I know we can carry on 
that good faith as we advise the Department on ESSA, and then I 
know we can continue in this Committee to work in good faith on 
other education laws, including reauthorization of the Higher 
Education Act.
    Now, I want to dig deeper into two examples of how the 
Department is currently not following ESSA and how it impacts 
students. Here is one example.
    In order to ensure that our most vulnerable students are 
not able to fall through the cracks, ESSA actually requires 
schools to pay special attention to sub-groups of students who 
have historically struggled, including students of color, low-
income students, English learners, and students with 
disabilities. states have to assess their schools not only by 
their overall performance but also by the performance of those 
student subgroups in the schools.
    Here's what it means for students. Let's say a state ranks 
its schools on an A through F grading scale. When averaged, all 
performance of the students averaged together, the school earns 
an A. But let's say many students of color or many low-income 
students are failing. That is a clear problem for that school, 
and states should be able to identify and provide support when 
our most vulnerable students are falling behind.
    Yet today, the Department is approving plans that do not 
include subgroup performance in state systems for measuring 
schools.
    Here's another example. One of the Federal Government's 
primary responsibilities in ESSA is to provide resources and 
support for schools who need improvement. ESSA requires the 
states to identify three different types of schools that need 
support and improvement, and the law is very clear on that--
three. But instead, the Department is approving plans that only 
identify two categories of schools or include the same 
definition for two types.
    I want to, by the way, touch on a common misconception on 
this topic. Identifying struggling schools is not intended to 
punish or embarrass those schools. It is to determine which 
schools are struggling in what way and what resources are 
needed to get those schools back on track.
    Chairman Alexander, we negotiated this law for over a year 
and we included those provisions because we believed that they 
would help students and schools and communities.
    I believe in this law, and I'm not going to stop raising 
these issues until the Department resolves them. I'm glad that 
the Secretary is meeting with us. I've had a chance today to 
give Senator Alexander some of our specific examples. But I 
look forward to hearing from you today, Mr. Brogan, on these 
and other issues in the law.
    Now, before I end, I do want to mention one other issue 
which is very important to me and to many others that affects 
parents and students and teachers around the country, and that 
is the Trump administration's desire to privatize our schools.
    Before her nomination, Secretary DeVos' experience in 
education didn't go much further than promoting her 
privatization agenda across the country, and after her 
confirmation hearing millions of people, millions, stood up, 
made their voices heard, and rejected her extreme ideological 
agenda.
    I am relieved that she has largely been unsuccessful in 
using her position at the Department to siphon money away from 
public schools, though we have seen attempts by the Department 
to manipulate ESSA to provide taxpayer dollars to privatization 
schemes.
    I know, Mr. Brogan, you share her views on privatizing our 
public schools, but I want to advise you against any effort to 
use our Nation's Federal education law to promote personal 
beliefs. That's critical to me. If you are confirmed as the 
Assistant Secretary of Elementary and Secondary Education, you 
will be responsible for an entire generation of students and 
their future. I hope you are prepared today to commit to 
putting them ahead of any kind of ideological agenda.
    With that, I look forward to hearing your testimony.
    The Chairman. Thank you, Senator Murray.
    I'm pleased to welcome our nominee, Mr. Brogan. I thank him 
for his willingness to serve our country yet again. He's done 
that many times in many different ways.
    He is joined today by his wife, Courtney, and his son, 
Colby. Thank you for coming. We welcome you both.
    Mr. Brogan spent much of his career in Florida, so Senator 
Bill Nelson will introduce him.
    Senator Nelson, welcome, and we know you have a busy 
schedule this afternoon, so after your introduction you're free 
to stay or free to leave according to your own schedule.

                      STATEMENT OF SENATOR NELSON

    Senator Nelson. Yes, sir.
    Frank, it's good to see you. I hadn't seen you in a while.
    Mr. Chairman, this is really an august gathering here. 
Senator Murray was a teacher. You, Mr. Chairman, were a 
university president. Mr. Brogan has been a 5th grade teacher, 
a dean of students, an assistant principal, a principal, a 
superintendent of his county education, then the state 
secretary of education, an elected position, then Lieutenant 
Governor, then university president at Florida Atlantic 
University, and then university president in Pennsylvania. I'm 
just a country lawyer. You're amidst all of these educational 
experts, and I'm here to tell you of my personal relationship 
and friendship with Frank over the years.
    We served together in the state government when he was the 
Secretary of Education, as well as our Lieutenant Governor. It 
is a pleasure for me to come and give a warm Florida stamp of 
approval as you all consider this nomination for a very, very 
important position, Assistant Secretary for Elementary and 
Secondary Education.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson, and thank you for 
making time to be here.
    Mr. Brogan, welcome. If you could summarize your remarks in 
about 5 minutes, then that will leave time for Senators to have 
questions of you.
    Welcome.

 STATEMENT OF FRANK T. BROGAN, OF HARRISBURG, PA, NOMINATED TO 
BE ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY EDUCATION, 
                    DEPARTMENT OF EDUCATION

    Mr. Brogan. Thank you, Mr. Chairman, and to Ranking Member 
Murray, Members of the Committee.
    First, I would be remiss if I did not thank Senator Nelson 
for his very kind comments. He is right, we worked together for 
a good many years, and hopefully both of us together and 
individually attempted to do good things in that case for the 
State of Florida. I really take this time to say thank you for 
providing the time that he did. You're right, he's a very busy 
man, and it is great that he was able to be here.
    It's an honor to be here today, and I mean that. Following 
the 40 years of public service at the local and state level, 
the possibility of serving as the Assistant Secretary for 
Elementary and Secondary Education in the United States 
Department of Education is both a humbling yet thrilling 
prospect for me.
    First of all, as we just did, I want to acknowledge once 
again the two most important people in my life. The Chairman 
was kind enough to acknowledge them a moment ago. My wife, 
Courtney--we have been married for 14--15 years. That is a 
terrible thing for a husband to do, especially since we just 
celebrated our 15th anniversary. Colby John was born 13, almost 
13 years ago next month.
    As the youngest of six children, my twin brother John and 
I--yes, there are two of us--never had the chance to know our 
father. Growing up in a single-parent household following his 
very early passing, we were raised by a mother who worked 
tirelessly to make certain that we were fed, clothed and, most 
importantly, loved. Perhaps, however, the greatest gift that 
she provided to us was her tremendous emphasis on the 
importance of our education. She did whatever was required to 
ensure that all of us took advantage of that education and 
ultimately had the chance to live, not just dream, the great 
American Dream. So to my entire family today, especially my 
late mother, I say thank you for what you have done for me.
    I would now like to tell you a little about my career--
you've heard some of it mentioned here this afternoon already--
in education and public service. I was, as stated, a first-
generation university student. And working a multitude of part-
time jobs, coupled with the help of financial aid, enabled me 
to graduate from the University of Cincinnati, as mentioned, 
with a degree in elementary education, a career, by the way, 
that I had aspired to since middle school.
    With my late wife Mary also a newly minted educator, we 
graduated and began our careers in Florida. I will never forget 
the first day that I spent as that 5th grade teacher, nervously 
watching the boys and girls as they quietly filed into the 
classroom and took their seats that morning. It was an 
exhilarating yet very powerful moment. These were my students 
and they were my responsibility. They were the children of 
differing ethnicities, of varying native tongues, economic 
circumstances, and family structures. Their parents were 
entrusting me with their own children's safety, learning, and 
ultimately seeing to it that I contributed to each of their own 
earned shot at that same American Dream. I set high 
expectations for all of them, and we worked together to make 
certain that they could and would rise to those expectations.
    For the next 39 years, I have held myself to those same 
basic principles of hard work and pursuit of excellence as a 
teacher, assistant principal, principal, school superintendent, 
commissioner of education, Lieutenant Governor, university 
president, and chancellor of two state university systems.
    Now, as I make my case to work on behalf of all of 
America's children and families, I would like to thank the 
President and Secretary DeVos for providing me the chance to 
continue engaging in the two priorities which I hold so dear, 
education and public service.
    My 40 years with students has also been marked by many 
life-changing experiences. I will never forget standing near 
President George W. Bush at an elementary school in Sarasota, 
Florida on September the 11th, 2001, as a classroom of 1st-
graders proudly read to him until he was interrupted with the 
news that our country was indeed under attack. I remember, as 
if it were yesterday, the request he made of me as we later 
moved to the media center, where he would read a statement to 
the large group of students, parents, and teachers gathered 
there, followed by a moment of silence for those already lost. 
His request was offered to someone that he knew had spent a 
career as a teacher and an educator. Specifically, he asked 
that following his departure, I remain and address the students 
who had just learned of these events in a way that perhaps only 
a teacher might.
    I hope you can better understand why my 40 years in 
education and public service has meant so much to me, but 
perhaps also have a better glimpse into why your consideration 
of my nomination for this position is such a very humbling 
experience and possibility.
    Even now, as I observe with the rest of the country the 
Department's efforts to review and approve state plans, as the 
Chairman mentioned, I grow more excited at the prospect of 
being directly involved in the new direction afforded to us by 
the Every Student Succeeds Act, a powerful piece of bipartisan 
legislation, as the Ranking Member had mentioned. This includes 
the next critical phase of implementation involving monitoring 
and support for these plans, and providing strong evidence-
based technical support to those embracing the challenge to 
greatly improve the education, and thus the lives, of our 
students.
    Please know that if I am fortunate to be confirmed by the 
Senate, I will remain committed to the same principles which 
bring me here before you today.
    Thank you again, Ranking Member, Mr. Chairman, Members of 
the Committee, and I look forward to answering your questions 
as best I can today.
    [The prepared statement of Mr. Brogan follows:]
                 prepared statement of frank t. brogan
    Thank you, Chairman Alexander, Ranking Member Murray and Members of 
the Committee.
    First, permit me to tell you what an honor it is to be here today. 
Following 40 years of public service at the local and state level, the 
possibility of serving as the Assistant Secretary for Elementary and 
Secondary Education in the U.S. Department of Education, if confirmed, 
is both a humbling yet thrilling prospect.
    Second, I would like to introduce the two most important people in 
my life--my wife Courtney Brogan, an attorney by training and the 
mother of our son, Colby John, who was born 13 years ago next month 
while I served as President of Florida Atlantic University in Boca 
Raton. I am proud to say that Courtney and I just celebrated our 15th 
wedding anniversary.
    As the youngest of six children, my twin brother John and I never 
had the chance to know our father. Growing up in a single parent 
household following his early passing, my brothers, sisters, and I had 
the great opportunity to be raised by a mother who worked tirelessly to 
make certain that we were fed, clothed, and most importantly, loved. 
Perhaps, however, the greatest gift that she provided to all of us was 
her tremendous emphasis on the importance of our education. She did 
whatever was required to ensure that all of us took advantage of that 
education and ultimately had the chance to live, and not just dream 
about, our share of the great American Dream. So to my entire family, 
especially my late mother, I say, ``thank you for what you have done 
for me.''
    Third, I would like to tell you a little about my career in 
education and public service. I was a first generation university 
student. I commuted to the university and worked a multitude of part 
time jobs while in school. That work, along with the help of financial 
aid, enabled me to graduate from the University of Cincinnati with a 
degree in elementary education; a career I had aspired to since middle 
school.
    With my late wife Mary also a newly minted educator, we graduated 
and began our careers in Florida. I will never forget the first day 
that I spent as that 5th grade teacher--nervously watching the boys and 
girls as they quietly filed into their seats that morning. It was an 
exhilarating yet powerful moment. These were my students and my 
responsibility. They were children of differing ethnicities, of varying 
native tongues, economic circumstances and family structures. Their 
parents were entrusting me with their own children's safety, learning, 
and ultimately seeing to it that I contributed to each of their own 
earned-shot at that same American dream. I set high expectations for 
all of them, and we worked together to make certain that they could and 
would rise to those expectations during that school year.
    For the next 39 years, I have held myself to those same basic 
principles of hard work and pursuit of excellence as a teacher, 
assistant principal, principal, school superintendent, commissioner of 
education, Lieutenant Governor, university president, and chancellor of 
two state university systems. And now, as I make my case to work on 
behalf of all of America's children and families, I would like to thank 
the President and Secretary DeVos for providing me the chance to 
continue engaging in the two priorities which I hold so dear--education 
and public service.
    My time as an educator has been spent helping to fulfill the 
promise of a nation to our students at every level and help them 
understand that, if they do their part, they will have the chance to 
grow up and be everything they are capable of being. My 40 years with 
students has also been marked by many life changing experiences. Not 
only has my own life changed, but I have been witness to so many other 
lives being changed along the way.
    I vividly recall watching with over a thousand middle school 
students from our vantage point just south of Cape Canaveral, the 
explosion of the space shuttle Challenger and the death of the entire 
crew, including teacher Christa McAuliffe. As principal, it was up to 
me to ensure that our school's wonderful teachers could assist those 
students in processing the tragedy and completing the rest of the day 
as best we could.
    I will also never forget standing near President George W. Bush at 
an elementary school in Sarasota Florida on September 11, 2001, as a 
classroom of first-graders proudly read to him until he was interrupted 
with the news that our country was under attack. I remember, as if it 
were yesterday, the request he made of me as we later moved to the 
media center, where he would read a statement to the large group of 
students, parents and teachers gathered there, followed by a moment of 
silence for those already lost. His request was offered to someone he 
knew had spent a career as a teacher, an educator. Specifically, he 
asked that following his departure, I remain and address the students 
who had just learned of these events in a way that perhaps, only a 
teacher might.
    Chairman Alexander, Ranking Member Murray and Members of the 
Committee, I hope you can better understand now why my 40 years in 
education and public service has meant so much to me but perhaps also 
have a better glimpse into why your consideration of my nomination for 
this position is such a humbling possibility for me.
    Even now as I observe with the rest of the country the Department's 
efforts to review and approve state plans, I grow more excited at the 
prospect of being directly involved in the new direction afforded to us 
by the Every Student Succeeds Act, a powerful piece of bi-partisan 
legislation. This includes the next critical phase of implementation 
involving monitoring and support for these plans, and providing strong 
evidence based technical support to those embracing the challenge to 
greatly improve the education, and thus lives, of our students.
    Please know that if I am fortunate to be confirmed by the Senate, I 
will remain committed to the same principles which bring me here before 
you today. Thank you again for this opportunity and I look forward to 
answering your questions.
                                 ______
                                 
    The Chairman. Thank you, Mr. Brogan.
    We'll now begin a 5-minute round of questions.
    I'm going to defer my questions and go to Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Brogan, as I highlighted in my opening statement, there 
have been a series of problems with ESSA implementation under 
the Trump administration, including importantly a lack of 
transparency in the state plan approval process, and I hope to 
hear from you on how you will work with Congress to fix those 
problems.
    As one of the authors of the law, I've raised my concerns 
both to Secretary DeVos and before this Committee. The Chairman 
has been very helpful in convening conversations with the 
Department, but there's been no resolution to the concerns I've 
raised, and the Department is continuing to approve state plans 
that violate ESSA. It concerns me that Secretary DeVos has not 
yet appeared before this Committee, all of us, to discuss 
implementation. I actually think that's unacceptable. Secretary 
King, by contrast, appeared twice before our Committee during 
the first year of ESSA implementation.
    I wanted to ask you, Mr. Brogan, if you're confirmed, you 
will lead the office within the Department that has primary 
responsibility for implementing this law successfully. Will you 
commit to appearing before this Committee regularly to update 
us on the continued implementation of the law, including what 
the Department will do to address state and local 
implementation that violates ESSA's guardrails?
    Mr. Brogan. Thank you, Senator Murray. I commit to 
transparency. I commit to working with the Department. Of 
course, I have not yet been involved at the Department with the 
approval process of the ESSA plans as I don't work in the 
Office of Elementary and Secondary Education. But I do commit 
to you that, as the Secretary has said, the first step is 
making certain that plans are approved that comport and comply 
with the law before we move into implementation.
    Senator Murray. Okay. Are you willing to come back before 
our entire Committee to address questions about it?
    Mr. Brogan. If invited, I would be happy to attend.
    Senator Murray. Okay, within the coming months the 
Department is likely to approve all of the state plans, and do 
so without addressing the concerns that I and many others 
actually have raised. So as the approval process concludes, the 
Department's monitoring of state accountability plans, the 
monitoring itself, will become all the more important.
    Do you commit to working with Congress to establish open 
and transparent monitoring processes to evaluate whether states 
and school districts are complying with all of ESSA's 
guardrails?
    Mr. Brogan. Senator, thank you. I commit to making certain 
that, again, we follow the laws that were laid down by Congress 
in the creation of that bipartisan piece of legislation in not 
only the approval but also the implementation of this first 
round of ESSA plans and look forward to working with you if I'm 
fortunate enough to be confirmed to make sure that's true.
    Senator Murray. Okay. Let me ask you, if you're confirmed, 
can you describe some of the initial steps that you will take 
to develop a robust monitoring process, and what are some of 
the leading indicators that the Department should monitor to 
determine if ESSA is being well implemented?
    Mr. Brogan. Thank you, Senator. One of my first 
obligations, if I'm fortunate enough to be confirmed for the 
position, would be to actually then begin deep conversations 
with the people who have been involved in this process to date. 
Thus far, because I am the Deputy Assistant with authority 
authorized by the Secretary in the Office of Planning, 
Evaluation and Policy Development, one of the things that I 
have not been able to do because of the confirmation 
requirements that I couldn't is to make certain that I know all 
I can know beyond what I've already worked on, which is to 
review all of the plans because they are all online; the 
feedback letters, which are also online I've been able to read; 
and, of course----
    Senator Murray. Have you thought yet about the monitoring 
process once these have been approved?
    Mr. Brogan. I have begun to formulate ideas, but it's 
impossible to really get into it too deeply until I first get a 
clearer understanding of how it's been approached thus far, and 
then how we would move not only with a continuation of approval 
of those plans if there are still plans to be approved by the 
time I were fortunate enough to be confirmed, and then also 
move into the monitoring phase.
    Senator Murray. All right. Well, one of the reasons 
Chairman Alexander and I worked together to get an ESSA bill 
passed was the growing concern from states across the country 
that the Obama administration was administering our Nation's K-
12 education law through waivers. Everybody was getting 
waivers. It wasn't working. And at the time, states in 
particular raised concerns about the lack of transparency and 
consistency in the interpretation of No Child Left Behind from 
one state to another.
    In passing ESSA, it was our intention to put our Nation's 
K-12 law on stable footing and ensure the law was implemented 
consistently across all 50 states. So it's really concerning to 
me that the Department has already approved at least six 
waivers of various provisions of our bipartisan law, and done 
it with very little transparency to Members of Congress or to 
the public.
    I wanted to ask you, will you commit to improving the 
transparency of the waiver process, and specifically by posting 
the content of the waivers approved by the Department, not just 
the approval letters but the actual content?
    Mr. Brogan. Senator, suffice it to say, I believe in 
transparency after all of these years, but because I haven't 
been deeply involved for all the right reasons in the process 
itself, again what I would need to do if I'm fortunate enough 
to be confirmed is to go in and look at the process that's been 
used for waivers in that regard. In reading the law and posting 
it up against what I've seen, I believe I'm correct in saying 
that none of the plans have contained waivers that have been 
approved at this point. These would each, that have been 
approved, be freestanding waivers, as far as I know.
    Senator Murray. Right. But because there is no public 
understanding of this, we are walking ourselves into everybody 
doesn't know why they got a waiver. It's not public; we just 
know they got waivers. I really believe that we need to have a 
better open process on this.
    Mr. Brogan. Thank you.
    The Chairman. Thank you, Senator Murray.
    Senator Hassan.
    Senator Hassan. Thank you, Mr. Chair and Senator Murray.
    Good afternoon, Mr. Brogan.
    Mr. Brogan. Hello, Senator.
    Senator Hassan. It is good to see you.
    Mr. Brogan. Good to see you again.
    Senator Hassan. To Mrs. Brogan and to Colby, thank you for 
sharing your dad. To Colby in particular, public service takes 
a lot out of the people who actually do it. It takes a lot out 
of their family, too. So we're very, very grateful.
    I wanted to just start this afternoon's conversation by 
reinforcing what Senator Murray has said. We work on a 
bipartisan level here. It's very important that we know what is 
carried out during implementation follows congressional intent 
and reflects the bipartisan agreement that we make. And to that 
point, I want to follow-up a little bit on this idea of 
subgroups.
    As Senator Murray has said, ESSA requires that states 
separate out data by demographics of students who historically 
have required additional supports in an education setting. 
Subgroups include English language learners, low-income 
students, and students who experience disabilities.
    The data is intended so that we can determine what schools 
need targeted supports, even in cases where the average overall 
performance is not a cause for concern. Some states have chosen 
not to use subgroup performance in school ratings at all, 
which--I would echo Senator Murray--is a clear violation of the 
law. In addition, some states propose to create so-called super 
subgroups by combining two or more groups together.
    When states have proposed using these super subgroups, the 
Department has been inconsistent in enforcing the requirement. 
For example, as Senator Murray has pointed out, some states 
don't include subgroup performance in school ratings at all.
    Going back to our discussion here of the importance of 
clarity and transparency, the very people who need to 
understand how schools are doing around certain subgroups the 
most--the families of students who belong in these subgroups--
aren't able to get the information if the data aren't being 
collected, or if the subgroups are being aggregated into these 
super subgroups. I know from my time as Governor that there 
were times a school district would say to us--literally they 
would say things along the lines of we can't educate, for 
instance, children with disabilities. We have too many kids 
with severe disabilities, we just can't do it. And we'd be able 
to point to aggregated data from another school system and say, 
actually, this school system is doing it really well. Here's 
the data. Why don't you share best practices here?
    If confirmed, do you commit to working with all states to 
disaggregate subgroup data in their state plans and to use this 
data as required by law?
    Mr. Brogan. First of all, Senator, thank you for the time. 
You were kind enough, a lot of it that you gave me yesterday, 
to have a chance to meet with you and talk about a great many 
issues. I appreciate it. You were very kind in doing so.
    Senator Hassan. You're welcome.
    Mr. Brogan. Relative to your question, I'm working under 
the absolute belief that the plans that have been approved were 
in compliance with the law in all of the required areas. By 
virtue of that fact, as soon as I move into that job, should I 
be fortunate enough to be confirmed, again, I will be able to 
gather significantly more in-depth information about the 
process and how it has all moved forward.
    But I know that the Secretary makes her first obligation--
I've heard her say it many times--seeing to it that all of 
those plans in the minds of the Department, including the 
Secretary, comport and comply with the law.
    Senator Hassan. Well, thank you, and we would look forward 
to following up, particularly around this issue.
    Mr. Brogan. Thank you, Senator.
    Senator Hassan. I also want to go to another issue. The 
most recent civil rights data collection reported over 100,000 
cases of restraint and seclusion were used during the 2014 to 
2015 school year, the vast majority of which were used on 
students with disabilities.
    If confirmed, how will you work to reduce the incidence of 
the use of restraints and seclusion, and will you continue to 
support the Department, the guidance that the Department has 
provided to state and local education agencies to address the 
use of restraint and seclusion?
    Mr. Brogan. Thank you, Senator. Of course, it's probably 
not a surprise after so many years and so many different 
capacities that the issue of restraint and seclusion is not, of 
course, as you know better than most, not a new one. It is 
something that has been in the system as an issue for a good 
long time, and it should be. It's a very, very important and 
delicate issue.
    Even though the Office of Elementary and Secondary 
Education does not directly weigh in on that issue from the 
Department right to the schoolhouse level, clearly working with 
other parts of the agency, such as the Office of Students with 
Disabilities, of course, and the Office of Civil Rights, the 
numbers that are out there which are available should always be 
looked at and reviewed and, if necessary, conversations take 
place about that.
    Senator Hassan. Well, I thank you, and I'm out of time. I'd 
like to follow-up with you on that because there are best 
practices that can greatly reduce the amount of seclusion and 
restraint used. It's a civil rights issue, and it should be on 
the forefront of everybody at the Department of Education 
regardless of which chair they sit in. Thank you.
    Mr. Brogan. Mr. Chairman----
    The Chairman. Thank you, Senator.
    Mr. Brogan ----if I might, just a real quick follow-up, I 
promise.
    I agree with you very much and have for my whole career 
that one of the greatest things we can do is recognize why in 
some cases restraint may be necessary, and yet always be on the 
lookout for how we can work with faculty, staff, in making 
certain that the number of restraints are always looked at and, 
if possible with differing strategies, reduced.
    Senator Hassan. Thank you. I look forward to working with 
you.
    Mr. Brogan. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hassan.
    Senator Jones.
    Senator Jones. Thank you, Mr. Chairman.
    Thank you, sir, for your service. Congratulations on this 
nomination.
    I've just got a couple of things, and I'd like to follow-up 
a little bit on what Senator Murray and Senator Hassan were 
kind of talking about. I'm going to need to go back to this 
transparency issue. I understand that you're not necessarily in 
the weeds of the Department, but you mentioned that there were 
some plans you saw that you felt complied with the law, and I 
guess my question has a couple of parts.
    Number one, were those plans you did review that you 
thought complied with the law, were any questions at all raised 
about those plans in your mind about whether or not they, in 
fact, complied with the law?
    Second, in anticipation of your testimony today, did the 
Department not brief you in any way about the thinking and the 
processes they went through to get to those applications in the 
approval process?
    Mr. Brogan. Thank you, Senator Jones. First of all, welcome 
to you.
    Senator Jones. Thank you.
    Mr. Brogan. We're both new.
    Thank you for the question. Let me address the last part 
first. Because of my role, and because of the Federal law 
regarding vacant positions, it was not the Department's desire 
not to provide me opportunities in elementary and secondary 
education, or even briefings in that regard, but to make 
certain that we were in compliance with that particular law. 
Because that's not the role that I currently serve in, that's 
the one that I am being considered for via confirmation, I 
really have been unable to appropriately become extremely well 
versed in how the specifics of the approval process took place.
    The second part, I did review many of those plans. But 
again, without being able to hear those conversations and being 
on the formulation of approval, it was difficult for me to even 
consider whether that was the case. I apologize for that but--
--
    Senator Jones. That's Okay.
    Mr. Brogan. But that was intentional.
    Senator Jones. That's Okay. That's fair enough.
    The other area I want to ask about real briefly is in the 
area of vouchers. I know you have been a proponent of vouchers, 
and I will tell you in Alabama that's a particular problem, and 
for me on a personal level, because I don't think we fund our 
schools as well as we should, particularly in a lot of the 
areas. There are a lot of private foundations that help more of 
the affluent schools. Where I live, I pay a fair amount more 
property tax because my community can afford it. I'm also 
concerned that so many of the private schools--and I'm just 
going to be candid about this--private schools that I've seen 
in Alabama and throughout the south were originally formed for 
one reason, and that's to get around the desegregation laws and 
to have separate schools. In fact, Alabama and other places, 
the schools seem to be more segregated than ever.
    Can you kind of walk me through your thinking? Because I'm 
concerned about taking money from an already poor school system 
and putting that in a private school that may or may not have 
been formed in the 1960's to get around court orders and the 
civil rights laws, but really just taking the money out of the 
public education. Because I will tell you, we've got great 
educators here. I feel pretty good because I'm a product of the 
public schools of Alabama, and I'm a strong proponent.
    Could you address vouchers for me a little bit, and 
particularly moving money from the public schools to private 
schools?
    Mr. Brogan. Yes, sir, I'd be happy to do that. Two parts. 
First of all is the word ``privatization.'' I want to make it 
clear to all of the Members today that I have worked in and 
around and for public education for my entire adult life, and I 
have no intention of attempting to privatize public education.
    On the second side of the coin is the issue of the word 
``voucher.'' First of all, let me be clear that I am a 
proponent of choice for parents, a wide variety of choices, 
unique oftentimes to the individual students who attend. But 
that includes, first and foremost, choices within the public 
education system today.
    I've been involved in the creation of magnet schools and 
charter schools and different schools of choice within the 
public school setting. But the idea of possibly expanding that 
still exists, and I will tell you that if done under the right 
parameters and in the appropriate way, with all the right 
thoughts going into those decisions, it can be done and be done 
appropriately.
    I realize the sensitivity of the issue, but I just wanted 
to clear the record there that I have no interest in 
privatizing the public education system that serves, obviously, 
the lion's share of America's children today and will for a 
long, long time.
    Senator Jones. Thank you, sir. I appreciate your answer to 
that. I appreciate you coming with your family, and if you're 
confirmed I'll look forward to seeing you back in front of this 
Committee.
    Mr. Brogan. Welcome to you, sir.
    Senator Jones. Thank you so much.
    The Chairman. Thank you, Senator Jones.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Mr. Brogan, congratulations to you and to your family.
    Three items I want to try to cover in 5 minutes; we'll see 
if I can get there. One I actually wasn't going to ask, but you 
said something I want to get clarification on, because I've 
asked some other witnesses who are nominees to have DOE 
positions about this. You were answering some questions and you 
were sort of ``I haven't been brought up to speed on this 
particular thing because of the rules regarding vacant 
positions.'' I kind of want to understand what you are being 
told you should be up to speed on and not be up to speed on.
    In other committees that I'm on, witnesses will say or get 
asked the question: Have you done anything to presume 
confirmation of the position? And the answer to that is, 
obviously, no. But usually people will come and they've prepped 
on what the job description is, or they've prepped on items, 
prepped on what their own priorities would be in the job, and 
they don't view that as inconsistent with being a nominee 
rather than a confirmed appointee.
    But it's been witnesses from the DOE and not other 
agencies, even before this Committee, who kind of come before 
us and say ``I've not been allowed to get briefed on those 
issues'' or ``I'm not up to speed on those issues.''
    What instruction are you given? How do you understand the 
rules about what you can know about this position that you 
might be confirmed to, and what you're not supposed to talk 
about?
    Mr. Brogan. Yes, sir. And it does come from the law. Not 
being an attorney, my understanding, both as it has been 
explained to me and my understanding of the reading of it, is 
that the wording of the law is written with the best intent. It 
is to make certain that people are doing the jobs that they are 
hired to do and not doing their job while they're beginning to 
do another job that requires something like Senate confirmation 
to which they have not yet been confirmed.
    Senator Kaine. Right.
    Mr. Brogan. The interpretation of it is clearly--and you 
stated this--not acting accordingly that might suggest 
otherwise.
    Senator Kaine. Right.
    Mr. Brogan. By virtue of that fact, the requirement laid is 
to be very careful that you don't give off any suggestion that 
you are working in an area that does require Senate 
confirmation before you are confirmed.
    Senator Kaine. I see, Okay.
    Mr. Brogan. But to that end, most of my work thus far on 
elementary and secondary education has been done not only 
through pure experience but also reading the laws, reading 
posted materials that are available to everyone, but just 
precluded from being engaged and involved in specific 
conversations or decisions that affect specifically elementary 
and secondary education.
    Senator Kaine. That's helpful.
    Mr. Brogan. Until which time I would be fortunate enough to 
be confirmed to do that.
    Senator Kaine. Yes. In your capacity when you were working 
in the Florida system, did you work with Federal impact aid?
    Mr. Brogan. Yes, sir.
    Senator Kaine. You understand the importance of that to 
communities that have a high percentage of Federal non-taxable 
property?
    Mr. Brogan. Yes.
    Senator Kaine. Is that a program that you think is valuable 
and that you would be committed to should you be confirmed to 
this position?
    Mr. Brogan. It is a program that at the time, because I 
haven't worked with it since, going back a long time ago, it 
was helpful.
    Senator Kaine. It's a very important thing in Virginia, as 
you might imagine, with a lot of military and other Federal 
property. The budget submission of the Administration on this 
earlier in the year cut it significantly, and this is something 
that I'll want to dialog about should you be confirmed.
    The last thing I'll ask is this. The thing that I'm sort of 
most into in the K-12 space, having been a mayor and Governor, 
is the retention of good teachers. Talk to me a little bit 
about work that you did either in your capacity as 
superintendent, teacher, or working as Lieutenant Governor, 
working with Governor Bush, strategies to retain good teachers. 
I think policymakers often talk a lot about getting rid of a 
bad teacher, and I generally found that the bigger and more 
challenging effort is attracting and then retaining good 
teachers.
    What are some strategies you think are important, and does 
the Federal Government have a role in helping states and 
localities retain good teachers?
    Mr. Brogan. Thank you, Senator. The answer to the first 
part of the question is it is one of the most important and yet 
challenging parts of what we do out there in public education, 
is to make certain that we are always recruiting, attracting, 
and ultimately helping to prepare people to be teachers. We 
will always need teachers. No matter what anybody else suggests 
about technology, we will always need great teachers.
    In today's market, as you look at curriculum and need 
becoming tighter and tighter, with more specific obligations 
laid upon a prospective teacher and current teachers, it's more 
important than ever before as we change focus in this world 
about what people will do when they leave their formal 
educational experience. It has become more important that we 
retrain current teachers, and that those teachers that we 
recruit and look to bring in already come to us with the skills 
necessary to be able to work with students and prepare them for 
the world that they are going to live in, not the one that we 
inherited from our mothers and fathers, and it's changed 
dramatically, as you know.
    Using various methodologies over the years, people all over 
the country--and that's the good news--who have been looking 
for innovative practice as to how they can recruit, retain, and 
ultimately train the teachers of the future, whether they're 
already in the classroom or those who are not yet there.
    Senator Kaine. I am over time, but if there's a second 
round I may ask the second half of that question, which is what 
do you think the role of the DOE, the Federal Government, might 
be in helping states and localities deal with the retention 
question.
    Thank you very much.
    The Chairman. Thank you, Senator Kaine.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Mr. Brogan, if you're confirmed, you'd be in charge of 
enforcing the Nation's K-12 laws at the Education Department, 
including the Every Student Succeeds Act. Now, I fought hard in 
that law to make sure that Federal election dollars go to the 
schools and the students who need them most, and I also fought 
for bipartisan data transparency provisions that would help us 
better understand how schools are serving all kids and 
understand which students need more help and more resources.
    I share the Ranking Member's concerns about Secretary DeVos 
ignoring parts of the law, so I want to start by asking about 
your commitment to enforcing the law. I just want to focus on 
the data issue. The law requires states and districts to 
separate data on how students are learning by specific groups 
of students, like African American students or students with 
special needs, and for states to include these data in how they 
figure out which schools need more money and more support.
    But a bunch of states just are not doing this. They are 
flat-out ignoring the law right now, and Secretary DeVos is 
letting them do that.
    What I want to know is, if confirmed, will you commit to 
make sure that every state follows this provision in the law 
and uses these critical data to figure out which schools need 
more Federal dollars?
    Mr. Brogan. Thank you, Senator. Yes. In direct answer to 
your question, I am a huge believer in data. I am not a data 
geek, but I know what data is capable of doing, and in this 
particular case the good news here is that the department is 
working hard, and I've actually been involved in this part of 
the process since my arrival not long ago, in helping to 
recreate how we can generate better data going forward and make 
sure that it is evidence-based when we talk about changes or 
alterations or program opportunities through best practice. 
That is one of the very exciting reasons I decided to ask for 
this nomination----
    Senator Warren. Good. I appreciate that, and I appreciate 
your unambiguous confirmation that we're going to follow the 
law in reporting these data, we're going to get these data and 
make sure these data are properly used.
    I want to ask you about something else, too. I want to ask 
you about charter schools. Boston's public charter schools are 
among the best-performing charter schools in the Nation, and 
that is particularly true for low-income children and children 
of color, and I am very proud of the hard work that educators 
in those schools are doing to deliver a great education for our 
kids.
    But I also think there's a lot to be learned from why the 
Boston charter schools do so well. So can I just start by 
asking you, what is your view of why those schools do so well 
in delivering education for their children?
    Mr. Brogan. Thank you, Senator. I was actually commissioner 
of education in Florida when Florida passed its first charter 
school bill. Gosh, that's a long time ago, 1996 I think, if 
memory serves. And why that was an important move to make, 
there were many reasons, but one of them was the ability not 
only to see children and families have a different choice if 
they chose to make it, but very importantly what would be the 
difference in the charter school and what could we learn from 
it as it was worked around the boys and girls who called that 
charter school home.
    I think if you look nationally, that really is one of the 
most common answers you receive about why charter schools are 
not just great places for boys and girls, as you mentioned, in 
Boston, but also the opportunity to observe what changes are 
taking place, and then hopefully--and that's my excitement--is 
ultimately through great data and research determine what those 
practices have meant to the success of those boys and girls.
    Senator Warren. Let me push back just a little bit here, 
Mr. Brogan, because what I'm talking about here is 
Massachusetts charter schools, these Boston charter schools are 
doing better than charter schools in other parts of the 
country, and that's what to me makes it the interesting 
question. I just want to point out some things.
    In Massachusetts, only the state grants new charters. They 
don't let anyone else do it. We capped the number of charter 
schools to keep them from ballooning out of control and 
crippling the district finances. We don't allow for-profit 
companies to run charter schools. We hold charter schools 
accountable for delivering a good education for all of our kids 
through very aggressive oversight. We shut down charter schools 
if they're failing our kids. I believe that the evidence is 
clear that more oversight and more accountability works for our 
kids.
    I'm out of time, so I'm going to stop, but I'm going to ask 
you in the follow-up questions for a commitment that what we're 
going to get is we're going to encourage the states to 
strengthen their oversight of charter schools, not to weaken 
their oversight of charter schools, so we can guarantee they 
deliver a top-notch education for our kids.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to drill down a little bit deeper into some of the 
facets of approved state plans that many of us believe are in 
direct contradiction of the law that we all voted for in a 
bipartisan way and ask your opinion about maybe one or two of 
those problematic areas.
    The first is an issue over the confusion of subgroup 
definitions. We identified three categories of schools that 
need to be targeted for intervention: the dropout factories, 
the bottom 5 percent of schools; schools with consistently 
under-performing subgroups; and schools with subgroups 
performing at the level of the bottom 5 percent of schools.
    Here's the issue. The issue is that a lot of state plans 
confuse the second two categories and, in fact, create a 
definition by which if a school's group of black students or 
disabled students won't receive any intervention until they 
reach that level of being as bad as the bottom 5 percent of 
schools.
    I just want to get your thoughts on this. Do you think that 
it's appropriate for the Department of Education to give some 
guidance to states to make sure that they aren't basically 
morphing these last two categories together? We created three 
distinct categories because we expected that they would be 
defined differently, and that is not what's happening. There 
have been several state plans that have shown significant 
confusion over those two different groups.
    Mr. Brogan. Thank you, Senator Murphy. A few moments ago we 
began to have a similar conversation. So first of all, I'm 
going to qualify--and I hate to do this, but I have to--that I 
have in my current role not been a participant in any of the 
inside-the-Department conversations or the development of the 
approaches to the ESSA plans that I would be privy to should I 
be fortunate enough to be confirmed for this position. So that 
would include things like the issue of the bottom 5 percent and 
the assessments, et cetera.
    Having said that, I have read the law and believe that, 
first and foremost, the responsibility of the Department is to 
approve those plans that have met the law. But I too believe 
that over time, especially since it's round one, we're probably 
going to find things that may require a deeper dive at a later 
date.
    Senator Murphy. But is that something--you don't need 
knowledge of what the Department is doing. Is a state plan in 
compliance if they create the same definition for two different 
categories that has been articulated by Congress, in particular 
the definition of consistently under-performing subgroups and 
the definition of schools with subgroups that are performing at 
the level of the bottom 5 percent of schools?
    Mr. Brogan. Thank you, Senator. I would be uncomfortable 
trying to answer that question without having a much deeper 
understanding of everything that went into that particular plan 
and the formulation, but unfortunately that's the position I'm 
in today.
    Senator Murphy. All right, let me ask you an easier one. 
Clearly, ESSA says in black and white that when you create your 
school-by-school measurement, it has to include in it, in that 
methodology, subgroup performance. There have been plans 
approved in which the methodology regarding school quality does 
not include subgroup performance. So would you agree that a 
state that does not include subgroup performance in their 
school rating methodology is not in compliance with the law?
    Mr. Brogan. The only way I can answer that, Senator, at 
this point--thank you for the question--is to say that the 
Secretary has made it clear over and over again to everyone 
that she will only approve plans that meet the law, and 
therefore the plans that have been approved, by all accounts, 
have complied with that particular fiat.
    Senator Murphy. I think this is where the disconnect is. I 
mean, that one seems black and white to us, that ESSA says very 
clearly subgroups have got to be in your methodology. There are 
irrefutably some plans that have been approved that do not 
include subgroups in their methodology. So once you get there, 
I really look forward to--I think it's been referenced that 
there's going to be a conversation between the Ranking Member 
and Secretary DeVos. I think that's incredibly important, 
because it's just a little bit of a mystery as to how the 
Department can say that only plans that have met the 
requirements have been approved, and yet this just seems black 
and white. It doesn't seem black and white, it is black and 
white to us. And maybe once you're there and once Secretary 
DeVos comes and talks to the Committee, we can get a better 
sense as to why we're not seeing eye to eye on this.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Kaine, you had an additional question?
    Senator Kaine. Just to follow-up on this question of 
teacher attraction and teacher retention. What do you think the 
right role for the Federal Government is in helping states and 
localities with that, if you think there is a Federal role?
    Mr. Brogan. Thank you, Senator. I feel my answer will be 
for much of what we're talking about today in terms of the 
Department. I believe in ESSA, for example, there is a great 
opportunity not only to approve plans as a requirement, not 
only to oversee implementation, make certain funds are flowing 
appropriately and are accountability based as they are spent, 
but also very importantly to identify and organize and provide 
best practice to states and school districts and schools all 
over the country on a host of issues, and I think the ESSA 
plans over time are going to be a great fulcrum for identifying 
some of those.
    I think that the Department has that role to provide 
technical assistance, as I said in my introduction, and 
identification of best practice so that people who are groping 
with these issues, if you will, will have the opportunity to 
find out what's working and where.
    Senator Kaine. How about teacher loan forgiveness programs? 
There are two Federal programs, public service loan forgiveness 
that is more general but that allows loan forgiveness for folks 
who have public service careers like teaching, and then there's 
a specific teacher loan forgiveness program. This is a Federal 
program to try to attract good teachers and then enable them 
through loan forgiveness to stay in the profession. Do you 
support those programs?
    Mr. Brogan. I'm not exactly familiar with those specific 
programs, but I am supportive of programs that really will help 
us to identify, recruit, and retain high-quality teachers, 
which is one of the hallmarks of a great education.
    Senator Kaine. By supporting, you also mean supporting that 
there is a Federal role to try to help states and localities do 
that?
    Mr. Brogan. Well, the Federal Government has a long track 
record of helping to identify things that they believe will 
work and through additional funding to be able to identify them 
and support them over time.
    But I will say this about that. One of the--back to the 
issue of great data and great information in terms of evidence 
based, here is another good example. Anything that we do 
together over time needs to be identified through evidence-
based work in terms of what we're trying to do to achieve, and 
over time are we achieving it. I think that will be a 
tremendous assistance to the people out there in school 
districts, to the Department, and to Congress over time.
    Senator Kaine. I completely agree with you. I want to do 
things that are evidence based, and if we're doing things that 
aren't working, then we should do something else.
    I sometimes run into witnesses who would say that even if 
it were evidence based, no, the Federal Government doesn't have 
that role. I'm concerned about it now for a particular reason. 
We're working on the potential for rewriting the Higher 
Education Act. The House has passed a version of it. It's on 
the floor of the House, the House committee. We are talking 
about it. We have a hearing about it this morning in the 
Senate. But the House version that's on the floor eliminated--
my understanding is it eliminated Title 2 of the Higher 
Education Act, which is teacher preparation, on the theory that 
that's not really the Federal Government's responsibility.
    I mean, I can't think of a priority that should be more 
important. We can talk about what's the right thing to do, or 
not, or whether it's evidence-based or not. But the removal of 
teacher prep as a Federal priority, assisting states and 
localities with teacher prep and retention, I would find highly 
problematic. That's the reason I'm asking you the question. 
We'll have an opportunity to follow-up more and also to talk 
about this when we get to HEA work. I appreciate your answers.
    Thank you, Chair. I yield back.
    The Chairman. Senator Murphy, do you have other questions?
    Senator Murphy. One additional question. Thank you for 
allowing it, Mr. Chairman.
    I have similar concerns raised by Senator Hassan regarding 
seclusion and restraint, and I thank you for your comments on 
that. The data show that it's disabled kids in particular that 
tend to bear the brunt of seclusion and restraint. There's a 
right way and a wrong way to do it.
    A related topic is that of corporal punishment. There are 
still several states that allow for corporal punishment. The 
idea behind it is that in order to effectuate discipline in 
your school, you need to inflict physical pain on students as a 
means of correcting behavior.
    I just wanted to ask your personal opinion on corporal 
punishment. I'm not asking whether you think it's appropriate 
for the Federal Government to be involved or not in state 
decisions around corporal punishment. That's a different 
question. But do you personally think that it's appropriate for 
schools to engage in corporal punishment as a means of 
enforcing discipline?
    Mr. Brogan. Thank you, Senator. In answer to your question, 
first of all I can tell you, as someone who had to, as part of 
the job, mete out corporal punishment a long, long time ago, I 
found myself regularly offering that to the same students over 
and over again and questioned whether or not it was having the 
impact that was originally intended, which was to change 
inappropriate behavior. Ultimately, that district eliminated 
corporal punishment.
    But I also have a deep and abiding feeling regarding 
anything discipline, that has to be grounded at the local level 
because discipline is a local issue. Unless someone is 
violating someone's civil rights, just the general broad topic 
of discipline very much has to be focused and centered at the 
local level for those decisions, especially at the state level.
    I was a practitioner, and I understand what it is you're 
saying.
    Senator Murphy. It won't surprise you to know that I 
disagree. There are clear intersections with civil rights, and 
I hope that, maybe as you previewed in your answer to Senator 
Hassan's questions, you'll take a look at those, because when 
you look at who is the victim of seclusion and restraint and 
corporal punishment, there are some pretty clear trend lines 
that develop. It's a certain subset of kids who ultimately 
deserve those civil rights protections that you're referencing.
    Thank you, Mr. Chairman.
    Mr. Brogan. Thank you, Senator.
    The Chairman. Thank you, Senator Murphy.
    Mr. Brogan, thank you for your testimony and for your 
service. You have a distinguished background in public 
education which this Committee would welcome. I think both 
sides of the aisle welcome that expertise and background. I 
would observe that it would be much easier for you to answer 
questions or the Department to answer questions so we could 
confirm the Deputy Education Secretary, the nominee for General 
Counsel, the nominee for Assistant Secretary for Planning, 
Evaluation and Policy Development, and your nomination so that 
Secretary DeVos has some help down at the Department. I'm sure 
she hopes that we move swiftly to confirm you, as I do.
    I ask unanimous consent to introduce 16 letters of support 
into the record, including letters from the Council of Chief 
State School Officers, multiple college presidents, Florida's 
Commissioner of Education, and former Governor Jeb Bush.
    [The following information can be found in the Additional 
Material section]
    The Chairman. If Senators wish to ask additional questions 
of the nominee, questions for the record are due by 5 p.m. 
Monday, January 29th. For all other matters, the hearing record 
will remain open for 10 days. Members may submit additional 
information for the record within that time.
    The next meeting of this Committee will be a hearing 
Tuesday, January 30th, at 10 a.m. on reauthorizing the Higher 
Education Act, accountability and risk to taxpayers.
    Thank you for being here. Thanks to your family for being 
here.
    The Committee will stand adjourned.

                          ADDITIONAL MATERIAL

             Council of Chief State School Officers
                                                   January 19, 2018
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    On behalf of state education leaders across the Nation, I am 
writing in support of the confirmation of Mr. Frank Brogan as Assistant 
Secretary of the Office of Elementary and Secondary Education at the 
U.S. Department of Education. The Council of Chief State School 
Officers (CCSSO) is the nonpartisan, nationwide, nonprofit organization 
of public officials who head departments of elementary and secondary 
education in the states, the District of Columbia, the Department of 
Defense Education Activity, the Bureau of Indian Education, and the 
five extra-state jurisdictions.
    CCSSO supports the confirmation of Mr. Brogan as his years of 
experience at the state level would bring an important perspective to 
the U.S. Department of Education. As a former Commissioner of Education 
and Lieutenant Governor in the State of Florida, Mr. Brogan is well-
qualified to lead the Department in supporting state and local 
education agencies as they ensure all students graduate from high 
school prepared for college, careers and life. As a former state 
education leader himself, Mr. Brogan understands the needs of states, 
whether it is implementing a statewide accountability system or 
continuing to work with stakeholders at the state and local levels. 
This is particularly critical as states move forward in fully 
implementing the Every Student Succeeds Act. States will greatly 
benefit from a good partnership with a strong team at the U.S. 
Department of Education as they work to implement the law in a manner 
that advances equity for all students. CCSSO looks forward to working 
closely with Mr. Brogan to foster a successful Federal-state 
partnership that helps every state and local school district better 
meet the needs of every individual child.
    I urge the Committee to conduct a review of Mr. Brogan's record and 
experience and to work to confirm him.
            Sincerely,
                                     Carissa Moffat Miller,
                                        Interim Executive Director.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is my sincere pleasure and distinct honor to recommend Frank 
Brogan for the position of Assistant Secretary of Elementary and 
Secondary Education for the U.S. Department of Education. I 
collaborated with him many times when he was Chancellor of the State 
University System of Florida, and it was always rewarding to join 
forces with someone I admire and respect and who deeply appreciates the 
intrinsic value of an education. Certainly his dedication to the 
education field surpasses all others.
    One can review his resume to easily learn of Frank Brogan's 
achievements, successes, and exemplary contributions to the development 
of Florida's education system. But what you will not glean from it are 
his extraordinary ethical and moral values, exceptional leadership 
skills that are above reproach, and, most important, his relentless 
perseverance to ensure that America's students are well prepared to 
compete on a world platform as enter they enter the workforce. In 
addition, he is mission driven, a problem-solver, collaborator, and a 
trail blazer.
    I firmly believe that Frank Brogan would make an excellent addition 
to the U.S. Department Education as its Assistant Secretary of 
Elementary and Secondary Education. It certainly takes a village to 
achieve our Nation's educational goats, and it is imperative that our 
country have the best of the best in positions to make a difference. 
Certainly Mr. Brogan not only meets, but exceeds, the criteria to 
fulfill the important responsibilities of this distinguished post. I 
recommend him without hesitation.
            Sincerely,
                                         Eduardo J. Padron,
                                                Miami Dade College.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    Please accept this correspondence in support of the nomination of 
Frank T. Brogan as the assistant secretary of elementary and secondary 
education at the U.S. Department of Education.
    I believe that Mr. Brogan possesses the necessary experience, 
expertise and commitment to successfully fulfill the responsibilities 
for which he has been nominated.
    Mr. Brogan's extensive and distinguished background in education 
practice, policy and management is evident from his tenure as a 
teacher, principal, superintendent, state commissioner of education, 
university president, and chancellor of two state systems of higher 
education. Mr. Brogan most recently served as chancellor of the 
Pennsylvania State System of Higher Education. It was during his time 
as chancellor that he and I worked together on issues of mutual 
interest and concern.
    Mr. Brogan served as chancellor during a time of significant change 
in Pennsylvania's K-12 and post-secondary education environment. He was 
quick to assess the state's strengths and challenges, and soon 
thereafter directed and collaborated on strategic initiatives to 
improve the delivery of education programming in the Commonwealth. His 
leadership was characterized by a commitment to student success through 
support of high academic standards, effective educators, and 
accountability. He was a fervent supporter of innovation and reform 
where research and data suggested both could improve student 
achievement and lead to greater efficiency in the delivery of 
educational programming and services.
    During Mr. Brogan's tenure as chancellor, the presidents of 
Pennsylvania's State System universities and the presidents of 
Pennsylvania's community colleges collaborated in new ways to raise the 
educational attainment level in the state. One result of those efforts 
occurred in March 2016 during the historic signing of a Reverse 
Transfer Agreement between the State System universities and community 
colleges. This agreement, reached collaboratively among the state's 28 
public institutions of higher education, allows students who begin 
their studies at a Pennsylvania community college before transferring 
to a State System university to receive their associate degree while 
continuing their education. Similar agreements are mandated in other 
states but Pennsylvania's agreement was accomplished without the need 
for statutory intervention. The vision, development and implementation 
of the agreement came from the recognition--shared, articulated and 
supported by Mr. Brogan--that the Commonwealth's post-secondary 
education institutions needed to work outside of their ``silos'' and 
move past organizational barriers to provide additional opportunities 
for students. His leadership was essential to the initiative's eventual 
success.
    Mr. Brogan's solution-centered approach to managing challenges and 
his willingness to consider diverse perspectives characterized our 
collaborative work while he was chancellor. He was generous with his 
time and intellect, and his support of students was unwavering. I am 
certain that these same qualities would characterize his work at the 
U.S. Department of Education.
    Thank you for your consideration of these comments. I would be 
pleased to respond to any questions.
            Sincerely,
                                       Elizabeth A. Bolden,
                                                   President & CEO,
                    Pennsylvania Commission for Community Colleges.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    RE: Florida Chamber Supports Frank Brogan's Nomination as Assistant 
Secretary of Elementary and Secondary Education, U.S. Department of 
Education
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is my pleasure to support Frank Brogan's nomination as Assistant 
Secretary of Elementary and Secondary Education for the U.S. Department 
of Education.
    In the new world of global competition, talent is quickly replacing 
the tax incentive as the most important tool in the economic toolbox. 
With that in mind, Frank Brogan's visionary leadership, and ability to 
put the long-term success of talent supply and education ahead of 
short-term quick fixes is the right skillset for this important role.
    During his tenure as Commissioner of the Florida Department of 
Education, Frank's collaboration with the Florida Chamber of Commerce 
and Florida's job creators helped make measurable and lasting K-12 
improvements, and played a leading role In creating the Bright Future 
scholarship program to help incentivize students to seek higher 
education.
    As Lt. Governor, Frank joined Governor Jeb Bush and business 
leaders in ushering in Florida's landmark A+ education reforms. Since 
those reforms were first enacted, Florida has become a national example 
of success by demonstrating stronger student gains. Achievement gaps 
are closing, high-school graduation rates are at a 14-year high, and 
third grade reading scores are improving. In fact, statewide graduation 
rates among African American students increased by more than 10 percent 
in the last 5 years for Hispanic students--a direct result of the 
education reforms enacted under Bush/Brogan.
    While serving as President of Florida Atlantic University, Frank 
fostered public/private partnerships with leading STEM research 
institutes to increase access to medical education, and he further 
expanded access to higher education when student enrollment surpassed 
goals outlined in the university's first-ever comprehensive strategic 
plan.
    As Chancellor of the State University System of Florida, the 
university system saw significant progress in providing access to high-
quality higher education and a move to align talent generation to the 
needs of employers and Florida's future.
    Our children and our country win when we focus on a cradle to 
career continuum that provides education opportunities and training 
pathways for all learners. Frank Brogan is the right leader with the 
right vision and passion to help ensure our Nation's education system 
succeeds.
                                               Mark Wilson,
                                                   President & CEO,
                                       Florida Chamber of Commerce.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    As a young educator in 1997 I had the privilege of meeting Frank 
Brogan. At the time he was the Florida Commissioner of Education and I 
was the newly named Florida Teacher of the Year. During that school 
year I had the opportunity to serve as the Christa McAuliffe Ambassador 
for Education and to say that it provided me with my greatest learning 
experience as an educator is an understatement. I was able to travel 
with Frank, learn from Frank, witness firsthand the passion that he has 
for education, and to see the difference one educator can make. I left 
that experience feeling empowered and knowing my value in the 
educational community. It made all the difference in the educator and 
administrator I went on to become.
    Frank Brogan has spent a lifetime making students his priority. 
From classroom teacher to administrator it is evident in every 
conversation held with him that his primarily goal is that each and 
every student have the opportunity to meet their educational potential. 
He not only set high standards for students during his time as 
Superintendent, Commissioner, and Lieutenant Governor; he also set high 
standards for educators, knowing that they are what truly make the 
difference in the lives of children. He worked tirelessly in turn to 
make educators feel valued as professionals. He is what I perceive as a 
perfect example of public servant.
    I wholeheartedly endorse Frank Brogan being appointed as Assistant 
Secretary of Elementary and Secondary Education for the U.S. Department 
of Education. I am confident that he will bring an element to the 
position that is not only quantifiable but is absolutely necessary for 
the success of the students in America.
            Thank you for your consideration,
                                            Grace Williams,
                                  1997 Florida Teacher of the Year,
                                              1998 Milken Educator,
                   1998 Christa McAuliffe Ambassador for Education,
                        Principal/Owner, Parsons Christian Academy.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    I am writing on behalf of Frank Brogan who has been nominated to 
serve as of my recent nomination to the position of Assistant Secretary 
of Elementary and Secondary Education for the U.S. Department of 
Education. Frank's career has made him extraordinarily qualified for 
the job.
    He has been a classroom teacher, a principal, a school district 
superintendent, the Florida Education Commissioner, Florida's Lt. 
Governor, President of Florida Atlantic University and the leader of 
two University and College systems (Florida and Pennsylvania). He 
showed his passion for student learning at every level of education and 
would do the same if confirmed as Assistant Secretary of Elementary and 
Secondary Education.
    I recommend his confirmation.
            Sincerely,
                                                  Jeb Bush.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chaim1an Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    I am writing in support of Mr. Frank Brogan for the position of 
Assistant Secretary of Elementary and Secondary Education for the U.S. 
Department of Education. I had the great pleasure of working closely 
with Frank from 1999 to 2004 when he was Lieutenant Governor of 
Florida. Frank was the pivotal person implementing Governor Jeb Bush's 
groundbreaking K-l2 reforms during his first term. Frank exhibited an 
incredibly high degree of policy knowledge, political skill, and 
integrity. As a former classroom teacher principal and State 
Commissioner of Education, he had more real life K-12 experience than 
anyone I had worked with.
    I know that he will do an outstanding job for the Department of 
Education. The country would be lucky to have him in this position. 
Please contact me at any time with any questions.
            Sincerely,
                                           John F. Kirtley,
                                                          Chairman,
                                              Step Up For Students,
                                                     Vice Chairman,
                              The American Federation For Children.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    I am writing this letter to support the nomination of Frank Brogan 
as the Assistant Secretary of Education for Elementary and Secondary 
Education.
    As a friend and as former speaker of the House and State Senator in 
Florida, I have known Frank for nearly 25 years. I had the privilege of 
working with Mr. Brogan on high-level, complex education policy issues 
during his tenure as Florida's Education Commissioner, Lt. Governor and 
Chancellor of the State University System.
    As a professional and a family man, Frank is well regarded for his 
integrity, strong character and unmatched enthusiasm. His understanding 
of executive duties and unwavering commitment to improve the lives of 
students through quality education is unwavering.
    Without reservation, I strongly endorse the confirmation of Frank 
Brogan as Assistant Secretary of Education.
            Sincerely,
                                             John Thrasher,
                                                         President.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is my honor to offer this letter of support for Frank T. Brogan 
to be confirmed as Assistant Secretary of Elementary and Secondary 
Education for the U.S. Department of Education.
    I had the opportunity to serve with Mr. Brogan when he was 
Chancellor and I was serving as president of Clarion University-one of 
the 14 universities within Pennsylvania's State System of Higher 
Education. I've also had the unique experience to succeed him in the 
role as CEO of this System. From both perspectives, I truly appreciate 
his courage and ability to shine a public light on challenging matters-
creating vitally important public dialog that impacts the State System.
    During his time as Chancellor, Mr. Brogan was the lead advocate in 
promoting both student affordability and state investment for the 14 
universities within the System. Those efforts resulted in three 
consecutive years of increased appropriations-an impressive feat amid 
Pennsylvania's financial constraints and following 7 years of budget 
cuts or stagnations.
    From his arrival in 2013, Mr. Brogan worked hard to eliminate 
outdated or burdensome regulations that held back the creativity and 
nimbleness of our universities-instituting new policies to encourage 
flexibility and greater decisionmaking at the local level. These 
efforts continue even today, with increased vigor.
    Most important, Mr. Brogan was the first to call for an 
independent, top-to-bottom review of the State System. Completed in 
2017, results of that review led the Board of Governors to establish 
three strategic priorities:(1) ensuring student success; (2) leveraging 
university strengths; and (3) transforming governance and leadership. 
These priorities are already being used to guide the System Redesign 
that will help our students and universities thrive into the future.
    Mr. Brogan has a wealth of experience--both inside and outside the 
classroom--that will serve the U.S. Department of Education well. As a 
lifelong educator who has served in both K-12 and higher education 
roles, he is uniquely equipped to provide both leadership and real-
world perspective as the department works to shape the future of 
education policy.
            Sincerely,
                                          Karen M. Whitney,
                                                             Ph.D.,
                                                Interim Chancellor,
                   Pennsylvania's State System of Higher Education.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    I am writing to you in support of Frank T. Brogan, President Donald 
Trump's nominee for the position of Assistant Secretary of Elementary 
and Secondary Education for the United States Department of Education.
    Over the past 30 years, I have had the pleasure of working 
alongside Mr. Brogan and witnessed, first hand, his many 
accomplishments. In 1994, while he served as Florida's Commissioner of 
Education, he was vital to the creation of the Florida Bright Futures 
program which has helped more than 725,000 students attend a post-
secondary institution. Four years later, while in his role of 
Lieutenant Governor for the State of Florida, he oversaw education 
policy and was the legislative liaison for the administration. Then as 
president of Florida Atlantic University (FAU) in 2003, he developed 
the first-ever comprehensive strategic plan for the university and 
focused on encouraging diversity among FAU's students, faculty and 
staff. While at F AU, he moved the university toward becoming a strong 
engine of economic development for South Florida and grew the 
university with the largest expansion of facilities in FAU history.
    In 2009, Mr. Brogan was selected as the Chancellor of the State 
University System of Florida. During his tenure, he was able to restore 
the relationship of the State University System with the Florida 
legislature, he raised enrollment by 7 percent and increased degree 
production by 12 percent. He also received full Board approval of the 
2025 Strategic Plan for the System. Prior to his departure, he laid the 
groundwork for the Performance Based Funding model that Florida uses 
today to track university progress and system goals.
    There are many, many more accomplishments of Mr. Brogan throughout 
the years. Those accomplishments and hard work are a testament to his 
lifelong dedication to education and to his fellow citizens.
    It is with my highest degree of confidence that I fully support Mr. 
Frank T. Brogan for the position of Assistant Secretary of Elementary 
and Secondary Education for the United States Department of Education.
            Sincerely,
                                   Marshall M. Criser, III,
                                                        Chancellor.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    This letter comes in recommendation for Hon. Frank Brogan for the 
position of Assistant Secretary of Elementary and Secondary Education 
for the U.S. Department of Education.
    I have known Mr. Brogan for close to 25 years in several capacities 
here in the great State of Florida. I first met Mr. Brogan in 1993 
while he was the superintendent of Martin County, Florida schools and I 
was a program coordinator in the Florida Department of Education. His 
outstanding vision as an educator lead his schools to be among the 
leaders in Florida in developing career pathways, and assuring high-
level academic and technical performance for secondary students. He was 
also one of the pioneers in Florida in articulating those career 
pathways to college.
    From 1995-1998 I had the honor of working for Mr. Brogan while he 
served as the elected Commissioner of Education in Florida. In my role 
as director of the School-to Work Opportunities initiative, we built 
upon the career pathway models aforementioned and brought them to scale 
state-wide. The goal of this effort was assure all Florida students 
were prepared to enter the workforce and post-secondary education. 
Florida was a national model in this effort under his support.
    Mr. Brogan then became Florida's Lieutenant Governor in 1998 and 
was actively involved in the Florida School Code rewrite and reshaping 
of higher education governance in Florida. As you know he had great 
success here as Chancellor of the State University System as well as in 
Pennsylvania.
    There are few people I have met and worked with in my career as an 
educator in Florida that have impressed me more than Frank Brogan. He 
is extremely knowledgeable about all aspects of K-16 education. He is a 
visionary and willing to try new methods, practices, and educational 
models to improve student performance. Moreover, he is an honorable 
person who can be trusted to work closely with educators around the 
country and advance teaching and learning for all. His high level 
experiences, both as an elected official and appointed administrator, 
make him uniquely prepared for the position of Assistant Secretary of 
Elementary and Secondary Education for the U.S. Department of 
Education.
    It is without any reservations that I strongly support and 
encourage his confirmation.
            Kindest Regards,
                                            Michael Brawer,
                    Chief Executive Officer and Executive Director,
                                   Association of Florida Colleges.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is an honor to offer my wholehearted support of President Donald 
Trump's nominee to the position of Assistant Secretary of Elementary 
and Secondary Education for the U.S. Department of Education, Frank 
Brogan.
    There is nothing more important than ensuring our nation's students 
have access to a public education system that enables them to gain the 
knowledge and skills necessary to succeed in this global, ever-evolving 
economy.
    Mr. Brogan began his career as a fifth grade teacher and, through 
hard work and dedication, rose through the ranks to serve in a myriad 
of positions at the K-12, college and university levels. Throughout 
that time, he proved to be a champion for student-centered policy and 
an exuberant leader whose passion for student success continually 
spurred positive change.
    As further evidence of his remarkable impact on education in the 
State of Florida, I have provided a small sampling of his legendary 
work:

        <bullet>  As Florida's Commissioner of Education, Mr. Brogan 
        played an integral role in re-focusing and streamlining the 
        department of education's work on increasing student 
        achievement. As the leader of the education agency for the 
        (then) fourth largest state in the Nation set up the conditions 
        for Florida's education reforms and skyrocketing student 
        achievement that are the envy of the Nation.
        <bullet>  During his time as Lieutenant Governor, he played an 
        integral role in establishing Florida's school grading system. 
        School grades remain a critical component of our state's 
        accountability system and have been the foundation of our 
        continued increases in educational excellence for all Florida 
        students. He also encouraged Floridians to mentor in schools 
        and with youth organizations. He helped develop the state's 
        Mentoring Initiative, which encourages state employees to 
        participate in their communities by providing 1 hour per week 
        of administrative leave for mentoring activities. This program 
        remains today.
        <bullet>  As the fifth president of Florida Atlantic 
        University, he helped secure partnerships with leading research 
        organizations, such as Scripps Research Institute, the To1Tey 
        Pines Institute for Molecular Studies, the Max Planck Society 
        and the H. Lee Moffitt Cancer Center & Research Institute. He 
        also grew dual enrollment, graduate and science programs.
        <bullet>  Under his leadership as chancellor of the State 
        University System, the system achieved significant progress in 
        providing access to high-quality higher education, which led to 
        increased enrollment, increased degree production and record-
        high attainment in academic standards, graduation rates, 
        national rankings and research.

    This unique combination of qualities and strong record of success 
demonstrate clearly that Mr. Brogan is the ideal candidate for this 
position, and I appreciate greatly the opportunity to speak on his 
behalf.
            Sincerely,
                                               Pam Stewart,
                                Commissioner of Education, Florida.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is my sincere honor and pleasure to support Frank T. Brogan's 
nomination to the position of Assistant Secretary of Elementary and 
Secondary Education for the United States Department of Education.
    Most recently Frank served as the Chancellor of the Pennsylvania 
State System of Higher Education and in this role Frank's leadership 
was instrumental in supporting our commonwealth's vision for higher 
education at the state-run universities and colleges. His guidance and 
knowledge exhibited in all realms of education while in that position 
led to increased efficiency, improved communications, and thoughtful, 
well-conceived high-level decisionmaking. Combined with Frank's 
excellent people skills, this led to a win-win situation for students 
in our state during the 4-years of Frank's tenure in this position.
    Mr. Brogan's support for the ESSA Plan which Pennsylvania put forth 
for approval to the United States Department of Education, and its 
subsequent approval, meant a great deal to our team. Frank 
enthusiastically hosted discussion groups as we formulated our plan, 
and his input during those group meetings was an invaluable 
contribution to the outcome of a dynamic and successful Pennsylvania 
plan.
    I thoroughly enjoyed collaborating with Frank as a member of the 
Pennsylvania State System of Higher Education Board of Directors, and 
valued his input to our ESSA plan. I wish him great success as he 
pursues this higher calling and next chapter in his illustrious career.
            Sincerely,
                                           Pedro A. Rivera,
                                            Secretary of Education.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    I am writing in my capacity as the president of the State Higher 
Education Executive Officers (SHEEO) Association to enthusiastically 
give my support to Frank Brogan as you consider his nomination as 
Assistant Secretary of Elementary and Secondary Education at the U.S. 
Department of Education. Mr. Brogan's service as Chancellor for both 
the Florida and Pennsylvania higher education systems, his tenure as a 
university preside nt, and his experience as both a public-school 
teacher and administrator equip him with an extensive set of skills 
that uniquely qualify him to serve in this capacity.
    Frank has proven himself to be a thoughtful and diplomatic leader 
who is respected by his peers. He is willing to address tough policy 
issues with an eye toward better equipping students with the skills 
needed to succeed in the workforce. In short, Mr. Brogan possesses the 
work experience and traits needed to further our Nation's P-20 
education agenda at this critical time.
    While SHEEO was saddened to lose Frank as a trusted and respected 
member of our organization, I am heartened by the possibility of his 
serving our Nation in this capacity. His experience and heart for 
service make him an ideal candidate.
            Respectfully,
                                        Robert E. Anderson,
                                                         President.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is with heartfelt enthusiasm I add my personal recommendation to 
the nomination of Frank T.
    Brogan as Assistant Secretary of Elementary and Secondary Education 
for the U.S. Department of Education.
    Having known Frank for nearly 25 years, it has been a privilege to 
watch him shape Florida's system of public education, first as 
Superintendent of Schools for Martin County, then as Florida's 
Commissioner of Education and finally as Lieutenant Governor of 
Florida.
    Frank's initiatives brought accountability and school choice to 
Florida Education. His experience and leadership skills will be an 
invaluable asset to our country's school system.
    Though Frank went on to be President of Florida Atlantic University 
and Chancellor of Pennsylvania's public university system his first 
love has always been the K-12 educational years which provide the 
foundation for every child's learning.
    Your favorable consideration of his appointment will be sincerely 
appreciated.
            Very truly yours,
                                             Toni Jennings,
                         Lieutenant Governor of Florida, 2003-2007,
                          President, The Florida Senate, 1996-2000,
                            Senator, The Florida Senate, 1980-2000.
                               __________
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.
    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:
    It is my pleasure to present a letter of support for Mr. Frank 
Brogan's nomination to the position of Assistant Secretary of 
Elementary and Secondary Education for the U.S.
    Department of Education. I have known Mr. Brogan for 20-plus years 
and have witnessed his tremendously positive impact on education in 
Florida. He has excelled in the many roles in which he has served 
throughout his public service career.
    As a former Florida school superintendent I had the opportunity to 
work with Mr. Brogan in his capacity as Florida Commissioner of 
Education and Florida Lieutenant Governor.
    In both roles he was widely respected for his work ethic and his 
knowledge of the entire scope of education both public and private. Mr. 
Brogan is known for being for the right and inclusive in his dealings 
with people. He embraces differences of opinion and has the ability to 
find the common ground needed to arrive at consensus.
    In my current roles as Chief Executive Officer of the Florida 
Association of District School Superintendents and as State Senator in 
Florida, I am pleased to support the President's nomination of Frank 
Brogan. He will be a tremendous asset to the U.S. Department of 
Education and w ill fulfill his obligations to the fullest.
            Sincerely,
                                  William J. Montford, III,
                                 Florida State Senator, District 3.

                         QUESTIONS AND ANSWERS

 Response by Frank T. Brogan to Questions of Senator Collins, Senator 
   Murkowski, Senator Young, Senator Murray, Senator Casey, Senator 
                       Warren, and Senator Hassan
                            senator collins
    Question 1.  The needs of public schools in Maine are very 
different from those in large urban areas. The majority of Maine's 
schools and school districts are small and rural, and the constraints 
on resources and realities of distance greatly influence the policies 
and practices for delivering high-quality education in those settings. 
The concern I hear in Maine from teachers, administrators, and parents 
is that school vouchers and other school choice policies will divert 
scarce resources from public schools. The U.S. Department of Education 
is an important partner in fulfilling the promise of high-quality 
public education for all students, and its primary focus should be to 
help our states and communities support and strengthen our public 
schools.
    Over your career, you have supported school choice policies. Would 
you support a Federal mandate that would require states to adopt 
private school vouchers or other so-called school choice options?
    Answer 1. No, I would not support a Federal mandate requiring 
states to adopt private school vouchers or other school choice options.
                           senator murkowski
    Question 1.  All states are unique. Alaska is more unique than 
most. Eighty-two percent of our communities are unconnected by road--
including our state capital. The cost of living in our rural 
communities is extremely expensive. A gallon of milk--if you can get 
it--can cost $20. Many children who grow up in the Bush think bananas 
are supposed to be brown. We have huge areas where the best internet 
connection available is by satellite, where downloading a FAFSA form 
can take hours. In one community in Southeast, the statewide assessment 
had to be scheduled on a day when no cruise ship was in town because 
the ship's passengers used up all the internet capacity. Our schools 
reflect incredible diversity in many ways, from size to culture to 
languages spoken. Anchorage School District is our largest with 
approximately 46,000 students. Over 100 languages are spoken and two of 
the most diverse schools in the Nation are located there. Pelican 
School District is our smallest school with 13 students in grades K-12. 
In rural Alaska, Native elders who were abused for speaking their own 
languages in school when they grew up are looking to their 
grandchildren's school to help save their dying languages. How will 
OESE, under your leadership, enable Alaska to take full advantage of 
the flexibility offered by ESSA to meet the needs of the students in 
such different settings across the state?
    Answer 1. One of the most important aspects and purposes of ESSA is 
the opportunity that the law provides to states and local school 
districts; through increased flexibility in the allocation of Federal 
funds, states are free to support the unique needs of their states, 
local communities, and students. If confirmed as Assistant Secretary 
for Elementary and Secondary Education, I believe that OESE can play a 
helpful and important role throughout the implementation of ESSA in 
providing SEAs and LEAs with technical assistance, including 
highlighting the broad flexibilities in the law.
    Question 2.  Native American students across the Nation, as a 
subgroup of students, have the lowest or nearly lowest proficiency 
rates, high school graduation rates, and post-secondary enrollment 
rates of any subgroup of students in the Nation. In Alaska, far too 
many Alaska Native children share these disappointing outcomes--a 
situation Alaska Native tribes and Native organizations are committed 
to improving. Many Alaska Native leaders believe strongly that Native 
leadership over how Federal, state, and local funds are spent to 
educate their children will result in much better outcomes. They point 
to the positive changes that occurred in Native health outcomes when 
the Indian Health Service compacted with Alaska Native organizations, 
which now direct delivery of health care in Alaska. Some Alaska Native 
leaders have proposed that the U.S. Department of Education compact 
with Alaska Native tribes and Native organizations to receive Title VI 
Indian Education Formula Grant funds and provide services directly to 
Alaska Native students. Would you be willing to meet with Alaskan 
education and Alaska Native leaders to discuss their concerns and this 
proposal?
    Answer 2. I would be pleased to meet with Alaskan education and 
Alaska Native leaders to discuss their concerns, should I be confirmed.
    Question 3.  According to multiple sources, including a 2016 report 
by the Center on Standards and Assessment Implementation funded in part 
by the Department, American Indian and Alaska Native Students achieve 
below their peers both in academic proficiency and high school 
graduation rates. This report recommends incorporating culturally 
responsive instruction, improving school climate, and increased family 
and community involvement as evidence-based strategies to reverse this 
long-standing trend. In many parts of the country, Native leaders are 
more involved in directing how these strategies are implemented. In 
many cases, they note that Native communities are best able to address 
the needs of Native children. If confirmed, you will have oversight 
over the Office of Indian Education, which was created to help schools, 
post-secondary institutions, tribes, and Native organizations' efforts 
to meet the needs of Native students through formula and competitive 
grants. Will you commit to meeting with the National Indian Education 
Association and with American Indian, Alaska Native, and Native 
Hawaiian leaders and advocates within the first month of your tenure as 
Assistant Secretary to learn more about what issues are important to 
these communities and how the Department can better serve American 
Indian, Alaska Native, and Native Hawaiian students?
    Answer 3. I would welcome the opportunity to meet with the National 
Indian Education Association, American Indian, Alaska Native, and 
Native Hawaiian leaders and advocates, to learn more about these 
communities, should I be confirmed.
    Question 4.  For American Indian and Alaska Native students, just 
as for all Americans, respect for family and culture is critical. Such 
respect for Native people is expressed through consultation with the 
elected leadership of tribes. Consultation is consistent with the 
Constitution's provision that the Federal Government is the entity that 
engages with those tribal nations. Consultation is also well-
established as critical when a policy or decision regarding Native 
communities is proposed. Native communities view meaningful 
consultation as a dialog where both parties are truly heard and 
considered and either consensus is reached or a respectful resolution 
occurs. Consistent with the importance of genuine engagement with local 
and state leaders, will you commit to pursuing meaningful consultation 
with tribes when a policy or decision that would impact Native 
education is under consideration by the Department?
    Answer 4. I believe strongly in the requirements for consultation 
with tribes and will adhere to them, should I be confirmed as Assistant 
Secretary for the Office of Elementary and Secondary Education.
                             senator young
    Question 1.  The Every Student Succeeds Act presents an opportunity 
for states and local school districts to develop policies best suited 
to their needs. If confirmed as the next Assistant Secretary for 
Elementary and Secondary Education, you will have a unique role in 
assisting states in meeting the requirements of the law as well as 
designing innovative strategies that complement the diversity of our 
country. I believe a vital component of innovation is adopting 
evidence-based approaches in order to ensure student success.

    <bullet>  In your opinion, what is the role of evidence-based 
models in education?
    <bullet>  Additionally, what is the role of the Federal Government 
in helping states and school districts across the country have access 
to evidence-based approaches to improving K-12 education?

    Answer 1. Consideration of the available evidence should always be 
central to making decisions about education programs. When evidence is 
not available, taking opportunities to build the evidence base so that 
we learn from our practices is also very important. ESSA reflects the 
importance of the use and development of evidence in education. In 
implementing the law, the Department partners with states, school 
districts, researchers, and others to highlight evidence-based 
approaches and support their implementation. I look forward to being a 
part of this effort, should I be confirmed.
                             senator murray
    Question 1. States will soon move toward fully implementing the 
Every Student Succeeds Act (ESSA), including identifying schools for 
comprehensive, additional targeted, and targeted support. School 
districts will also have to start to implement evidence-based 
interventions in those identified schools. What do you think the 
Department should do to provide assistance and support to school 
districts and states as they seek to implement these evidence-based 
provisions with fidelity?
    Answer 1. ESSA provides an opportunity for the Department to 
support state and local efforts to address the needs of the lowest 
performing schools (i.e., those identified as comprehensive support and 
improvement schools) and schools with low or consistently 
underperforming subgroups (i.e., those identified as additional 
targeted and targeted support and improvement schools). The Department 
has a variety of mechanisms through which it supports states and school 
districts in addressing needs unique to their contexts and students. 
For example, the Department released non-regulatory guidance entitled 
Using Evidence to Strengthen Education Investments available at https:/
/www.ed.gov/policy/elsec/leg/essa/guidanceuseseinvestment.pdf to 
support state and local use of data-driven decisionmaking. The 
Department's Institute of Education Sciences (IES) also releases user-
friendly reports and guides that summarize and provide information on 
evidence-based interventions to address different groups of students 
(e.g., those in the lowest performing schools and schools with gaps 
between all students and students with disabilities or English 
learners) in different contexts (e.g., rural or urban settings) and in 
different content areas (e.g., mathematics or reading/language arts or 
science). Further, the Department published technical updates to the 
Education Department General Administrative Regulations (EDGAR) to 
align the definition of evidence-based in ESSA with the evidence 
requirements in EDGAR. This alignment can support state and local 
efforts to coordinate the work across formula and discretionary grant 
programs.
    Question 2. What procedures should the Department put in place to 
ensure it can effectively monitor and determine whether states and 
districts are complying with all of ESSA's requirements? If confirmed, 
what steps will you take if states or districts are not complying with 
ESSA's requirements?
    Answer 2. If confirmed, I am committed to ensuring that states and 
local school districts comply with the requirements of ESSA, not only 
in the plans that states submit to the Secretary for approval, but also 
in monitoring the implementation of these plans moving forward. While 
it would not be appropriate for me to commit to putting any specific 
procedures into place, if confirmed, I intend to engage in robust 
discussions with the Secretary and staff in the Office of Elementary 
and Secondary Education to evaluate and determine how the Department 
can best ensure that states and districts are in compliance. If it is 
determined any states or districts are not in compliance with the law, 
then there are multiple tools that the Secretary may use, such as 
withholding certain administrative funds. However, I would need to 
consider each case on an individual basis, review all the relevant 
facts, and consult with career staff experts before making any 
recommendations to the Secretary.
    Question 3. It is not clear districts are fully focused on ESSA 
implementation, given the bulk of the attention so far has been on 
approving state plans. What do you think the Department can do to 
ensure school districts are fully aware of their obligations under ESSA 
and ready to implement those obligations?
    Answer 3. Local Education Agencies (LEAs) are critical to the 
success of ESSA and State Plan implementation. Should I be confirmed as 
Assistant Secretary for Elementary and Secondary Education, I look 
forward to working with states and LEAs, through the provision of 
technical assistance, as they move to the next phase of implementation 
of the approved plans and the additional requirements under ESSA. It is 
my understanding that the Department has a robust technical assistance 
program in place and is able to assist both states and LEAs with any 
questions they have relative to ESSA. Additionally, as issues arise 
through monitoring, the Department will work to ensure the requirements 
of the law are adhered to by both states and LEAs.
    Question 4. Do you support eliminating Title II of ESSA as the 
Trump administration proposed in its fiscal year 2018 budget? If 
``yes,'' please provide your justification, given this is the main 
Federal program dedicated to training and supporting our Nation's 
teacher and leader workforce? If ``no,'' please discuss the changes 
ESSA made to Title II and what the Department can do to encourage 
states and districts to implement those changes?
    Answer 4. Since I was not at the Department during the development 
of the Fiscal Year 2018 Budget Proposal, it would not be appropriate 
for me to speculate on those decisions. However, I understand that 
difficult decisions had to be made and, if confirmed, I look forward to 
working with the Department in developing future budget proposals.
    Question 5. The Department of Education already delayed by one 
school year, the effective date for state and districts to report per 
pupil expenditures. Do you commit, if confirmed, to ensuring there are 
no additional delays and to implement all other state and local 
reporting requirements in ESSA for the 2017-18 school year as specified 
in the June 2017 Dear Colleague letter from the Department? Do you 
commit there will be no further delays of the PPE reporting requirement 
(in other words that all states and districts will be reporting on that 
requirement by the 2018-19 school year)?
    Answer 5. If confirmed, I would commit to implementing the laws as 
authorized by Congress. In addition, I believe strongly in the 
necessity of giving parents useful and accessible information regarding 
the performance of their child's school, which the report cards 
provide. My understanding is that the delay of the effective date for 
reporting per pupil expenditures which was made in June 2017 was to 
help facilitate an orderly transition to the new law. So with regards 
to this specific issue, it would not be appropriate for me to commit to 
any decision, out of deference to the Secretary and without all of the 
facts necessary.
    Question 6. The Department has already issued a series of waivers 
from requirements in ESSA, despite the fact the law has not been fully 
implemented. It has been hard for Congress, advocates, and members of 
the public to find information on the content of the waivers requested 
by states. How do you think the Department can improve public 
transparency around the waivers sought by states and then the decision 
to approve or deny those requests by the Department, as well as the 
content of the waivers? Will you commit, if confirmed, to ensuring 
states release the content of their approved waivers so that Members of 
Congress and advocates can understand how policies in the approved 
waivers interact with the policies states have laid out in their 
approved ESSA state plans?
    Answer 6. I firmly believe in transparency. However, since I have 
not been involved in the deliberations or decisions concerning various 
waivers that states have requested, as well as how those decisions have 
been communicated to the public and Congress, it would not be 
appropriate for me to speculate on those issues. If confirmed, I will 
commit to reviewing the waiver review process to ensure that it aligns 
with what the law requires, as well as how the Department is providing 
information to the public concerning waiver decisions to ensure that 
there is an appropriate level of public transparency.
    Question 7. ESSA requires states and districts to report on several 
new reporting requirements, including per-pupil expenditures, data from 
the Civil Rights Data Collection, post-secondary enrollment where 
available, and several reporting requirements related to state 
accountability systems. Please discuss how the Department will ensure 
states and districts fully comply with these reporting requirements, 
including ensuring that identified schools are clearly listed on report 
cards, student outcomes on accountability indicators are clearly 
reported for all students and each subgroup of students, and how the 
Department will ensure the report cards meet all of the transparency 
requirements in section 1111(h)(1)(B) related to language and 
accessibility.
    Answer 7. If confirmed, I would commit to implementing the laws as 
authorized by Congress, which includes states and districts reporting 
the data elements described in your question. Given the law's 
requirements, my expectation is that the Department would use its 
standard methods of ensuring compliance, including monitoring and the 
provision of technical assistance, as well as its enforcement powers, 
if necessary.
    Question 8. In the fiscal year 2018 budget request, President Trump 
proposed to allocate $1 billion in Title I funding through the Weighted 
Student Funding (WSF) pilot authorized under Section 1501 of ESSA. In 
addition, President Trump proposed to manipulate the WSF authority and 
require school districts receiving this funding to adopt open 
enrollment policies, which was not a condition Congress included in the 
WSF pilot program when it passed ESSA. Both the House and Senate 
rejected this proposal, with the Senate Labor, Health and Human 
Services, Education and Related Agencies Subcommittee report 
accompanying the fiscal year 2018 appropriations bill stating, ``the 
Committee believes significant changes such as this to this recently 
reauthorized law should be made as needed through legislation 
considered by the authorizing Committees of Congress.'' Do you commit 
to implementing the WSF pilot as Congress intended and not conditioning 
use of this pilot authority on the adoption of school choice policies, 
including open enrollment?
    Answer 8. I am pleased that the Department released the Weighted 
Student Funding (WSF) pilot application on February 7, 2018. Should I 
be confirmed, I look forward to working with the Local Educational 
Agency awardees as they implement the pilot.
    Question 9. How should the Department conduct oversight of state 
plans that choose to implement locally selected nationally recognized 
assessments at the high school level as permitted in section 
1111(b)(2)(H)?
    Answer 9. It is my understanding that ESSA allows for a state to 
choose to make a nationally recognized high school assessment available 
for selection by an LEA in lieu of the statewide high school assessment 
only if certain specific requirements in the law are met. Therefore, my 
expectation is that the Department would monitor and enforce states' 
compliance with those specific provisions of the law in order to ensure 
a state is fully compliant, for those states that choose to make a 
nationally recognized high school assessment available as an option for 
use by an LEA.
    Question 10. ESSA contained new important tribal consultation 
provisions, both in Title I as it relates to states plans and in Title 
VIII, Section 8538, which requires certain school districts to engage 
in tribal consultation. We have heard many concerns that states and 
school districts are not meaningfully following through on these tribal 
consultation requirements. Please discuss how you plan to monitor 
whether or not states and school districts are meeting these 
requirements, including whether the Department plans to distribute 
technical assistance to states and districts in order to ensure they 
fully implement these important tribal consultation provisions.
    Answer 10. Consultation with stakeholders is an important aspect of 
ESSA and, I believe, is a necessary component to fulfilling the clear 
intent of Congress to return decisions back to states and local 
communities under the law. This certainly extends to tribal 
consultations on the development and implementation of state plans 
under Title I and programs under Title VIII. While it would not be 
appropriate for me to commit to any specific procedures to ensure these 
consultations take place and are ongoing, I intend to engage in robust 
discussions with the Secretary and staff in the Office of Elementary 
and Secondary Education, if confirmed, to evaluate and determine how 
the Department can best ensure that states and districts are in 
compliance with the law.
    Question 11. In part, Congress enacted ESSA to end the 
administration of our Nation's education law through waivers. In 
enacting ESSA, Congress made clear the vast majority of students with 
disabilities should be held to the same academic achievement standards 
as their peers and participate in their state's general assessment 
processes. To enforce this, Congress capped at 1-percent the number of 
students who can be administered the alternate assessment for students 
with the most significant cognitive disabilities. However, we've seen 
this Administration issue several waivers of key requirements in the 
law, including the 1-percent cap on alternate assessments. In doing so, 
I've been disappointed by the lack of public transparency in this 
process. For example, the Department has not posted in one, central 
location on its website the request from states, the supporting 
documents, or proof the state has made the request public and solicited 
comments from the public--as is required by ESEA.

        Question 11 (a). When the Department receives a waiver request, 
        will you commit to posting the requests, supporting documents, 
        and links to each states' public input process?
        Answer 11, 11 (a). I am aware there is significant interest in 
        waivers and believe in transparency. However, with regards to 
        this specific issue, it would not be appropriate for me to 
        commit to any decision or action, until I have an opportunity 
        to discuss with the appropriate staff at the Department 
        including the Office of Elementary and Secondary Education, and 
        the Office of General Counsel, should I be confirmed.
        Question 11 (b). Will you commit to holding states accountable 
        that the waiver requests to exceed the 1-percent cap on the 
        alternate assessment provide transparent state-level 
        information on the number and percentage of students, including 
        by subgroup, who are taking the alternative assessment?
        Answer 11 (b). The Every Student Succeeds Act (ESSA), as passed 
        by Congress, allows states to submit a waiver on the 1 percent 
        assessment requirement. If confirmed, I look forward to working 
        with the Secretary to ensure that the law is implemented as 
        written and in a way that focuses on providing flexibility, and 
        supporting states and local efforts to improve outcomes for 
        children with disabilities.
        Question 11 (c). How will you ensure that general and special 
        education teachers, paraprofessionals, teachers of English 
        learners, and other appropriate staff know how to make use of 
        appropriate accommodations when administering assessments to 
        students with the most significant cognitive disabilities?
        Answer 11 (c). Should I be confirmed, I will work with the 
        Office of Special Education and Rehabilitative Services on the 
        provision of any technical assistance requested and the 
        availability and dissemination of information related to these 
        issues.

    Question 12. Under your watch as Lieutenant Governor, Florida 
started multiple voucher programs, including John M. McKay Scholarships 
for Students with Disabilities program and the Florida Tax Credit 
Voucher program. The Orlando Sentinel completed a months-long 
investigation of Florida's voucher programs that found widespread 
waste, fraud, and abuse and little oversight. As one Orlando Sentinel 
reporter said ``This increasing, reckless waste of taxpayer dollars 
must stop.'' \1\ Is this waste, fraud, and abuse concerning to you? If 
so, how can you reconcile these results with the current 
administration's goal to create a $20 billion voucher program?
---------------------------------------------------------------------------
    \1\  See http://www.orlandosentinel.com/news/lake/os-lauren-
ritchie-millions-mckay-scholarship-20170420-story.html
---------------------------------------------------------------------------
    Answer 12. Waste, fraud, and abuse are concerns of mine; however, I 
am not familiar with, and thus cannot comment on, the details of the 
investigation by the press that you are referring to.
    Appropriate stewardship of taxpayer dollars is of critical 
importance to me and the Administration. I take the obligation 
seriously. Should a voucher program be proposed, it would be the 
responsibility of Congress to create and determine the specifics of 
such a program. If I am confirmed, and Congress chooses to create such 
a voucher program, I would implement the program in accordance with the 
law.
    Question 13. Children and youth in foster care are some of the most 
vulnerable students in our country. ESSA includes new protections to 
promote educational stability for children and youth in foster care, 
including requiring local educational agencies and child welfare 
agencies to collaborate to ensure that children in foster care are able 
to stay in their school of origin when they move foster placements. A 
recent report from the Chronicle of Social Change found that only 33 
states confirmed that they in compliance with these new requirements. 
\2\ How do you plan to work with HHS to ensure that these requirements 
are implemented with fidelity?
---------------------------------------------------------------------------
    \2\  See https://chronicleofsocialchange.org/analysis/analysis-11-
states-struggle-meet-Federal-education-requirements-foster-youth/29482
---------------------------------------------------------------------------
    Answer 13. Should I be confirmed, I would work closely with 
colleagues at the Department of Health and Human Services (HHS), 
Administration for Children and Families, to ensure that states are 
complying with this important provision in the law. I share your 
concern for this vulnerable population and assure you I will make it a 
priority to see that the law is followed.
    Question 14. ESSA makes a number of changes designed to support 
English learners, including moving accountability for English language 
proficiency from a separate system under Title III to the larger 
statewide accountability system under Title I. What supports do you 
think states need to implement changes related to English learners and 
how will you ensure that states receive these supports?
    Answer 14. I agree that ESSA, importantly, focuses additional 
attention on English learners and closing the achievement gap for these 
students, which represent a growing population of students across all 
states. States should be focused on training content teachers and 
focusing on interventions needed for math and reading. States also 
benefit from support in developing instructional programs that focus on 
language development. We can ensure that states receive this support 
through technical assistance and monitoring.
    Question 15. If confirmed, do you plan to make any changes to 
OESE's organizational structure? If so, what changes will you make and 
why?
    Answer 15. The Department is currently in the process of developing 
a plan for reorganization as per the requirements of Executive Order 
13781. The draft plan, recently presented at an all-hands meeting of 
the Department, would consolidate the Office of Innovation and 
Improvement into OESE. However, I did not take part in the development 
of the Department's draft plan, and am not involved in discussions 
regarding the proposed changes to OESE.
    Question 16. New national research by Chapin Hall at the University 
of Chicago finds that, of many attributes associated with youth 
homelessness, lack of a high school diploma or GED was the most 
strongly correlated with higher risk for youth homelessness. Young 
adults without a high school degree or GED had a 4.5 times higher 
likelihood of experiencing homelessness than peers who completed high 
school. \3\ This research highlights education as a critical 
intervention to prevent and end homelessness for America's youth. At 
the same time, ESSA places new emphasis on improving academic outcomes 
for homeless youth--both the stronger protections of the McKinney-Vento 
Act, and the required disaggregation of graduation rates for homeless 
students in Title I Part A. What actions will you take to help state 
and local educational agencies comply with these mandates, and ensure 
that children and youth experiencing homelessness cross the finish line 
to their high school graduation?
---------------------------------------------------------------------------
    \3\  See http://voicesofyouthcount.org/wp-content/uploads/2017/11/
ChapinHall-VoYC-NationalReport-Final.pdf
---------------------------------------------------------------------------
    Answer 16. ESSA requires states to report on graduation rates of 
homeless and foster students for School Year (SY) 17/18 though I 
understand there will be data coming out earlier for SY 16/17. These 
data will focus attention on where gaps exist and help states and 
districts better plan how to reduce and eliminate barriers to the 
educational success of these students. The accuracy of the data is 
critical thus the Department will work with states to verify.
    Related to graduation rates is the rate of chronic absenteeism. 
Attendance and retention are key indicators for the McKinney-Vento 
program. The Department will work to provide technical assistance to 
states and review these indicators and strategies during monitoring. If 
confirmed, I look forward to working on these critical issues.
    Question 17. The Chapin Hall study also found that 700,000 
adolescents between the ages of 13-17 experienced unaccompanied 
homelessness--that is, homelessness without a parent or guardian--in a 
year. \4\ The study found that youth homelessness was just as prevalent 
in rural areas as in urban and suburban areas. In contrast, public 
schools identified 111,708 unaccompanied homeless youth in 2015-2016, 
suggesting significant under-identification of this vulnerable group of 
students. \5\ What actions will you take to help schools better 
identify all children and youth experiencing homelessness, including 
unaccompanied youth, per the requirements of McKinney-Vento Act, in 
rural, suburban, and urban communities?
---------------------------------------------------------------------------
    \4\  See http://voicesofyouthcount.org/wp--content/uploads/2017/11/
ChapinHall--VoYC--NationalReport--Final.pdf
    \5\  See https://nche.ed.gov/downloads/webinar/uhy--essa.pptx
---------------------------------------------------------------------------
    Answer 17. The Department will continue to collaborate with other 
agencies that administer programs that serve homeless children and 
youth, including HHS and the Department of Housing and Urban 
Development, to better identify homeless students including 
unaccompanied youth. We need to facilitate collaboration among school 
districts, institutions of higher education and our grantees to address 
the educational needs of unaccompanied homeless youth and provide them 
with pathways to post-secondary education or training and careers. 
Providing data and data analysis to identify patterns of underreporting 
and sharing this information with our state coordinators will help 
focus attention on where the needs are greatest and target efforts 
appropriately.
    Question 18. An estimated 1.2 million children under age six 
experience homelessness, representing one of every 18 children under 
age six. \6\ These children face barriers to participation in quality 
preschool programs, including high mobility, lack of documentation and 
transportation, and lack of awareness of homelessness among preschool 
personnel. Fortunately, ESSA amended the McKinney-Vento Act in several 
important ways to increase access to preschool programs. What will you 
do to ensure that the Department's early learning initiatives are 
coordinated with the McKinney-Vento Act's Education for Homeless 
Children and Youth program?
---------------------------------------------------------------------------
    \6\  See http://www.naehcy.org/sites/default/files/dl/legis/ECE--
Fact--Sheet--2016--September19.pdf
---------------------------------------------------------------------------
    Answer 18. Experiences of homelessness in early childhood can have 
a long-term impact on a child's educational and emotional development. 
There are too many American children experiencing homelessness who need 
access to educational services to help minimize these negative impacts. 
The McKinney-Vento program should work closely with the Office of Early 
Learning at the Department as well as with HHS to make sure we are 
providing outreach to parents on the rights of homeless students to 
ensure their children have access to the services they need to be 
successful. Sharing data between agencies and making sure it aligns can 
help inform our technical assistance and monitoring and is essential to 
good program management. Greater collaboration among agencies will help 
facilitate greater engagement and response to address homelessness at 
all ages.
    Question 19. Do you commit to inform the Members of this Committee 
if you intend to undertake any review or revision of any existing 
guidance?
    Answer 19. The Department is thoroughly reviewing all guidance 
pursuant to Executive Order 13777. I am not involved in that work as a 
part of my current role at the Department. If confirmed, I will work as 
appropriate with Department officials including the Department's Office 
of Legislation and congressional Affairs, on these matters.
    Question 20. What is your opinion about whether Minority Members of 
the HELP Committee have the authority to conduct oversight of the U.S. 
Department of Education?
    Answer 20. I appreciate and respect the oversight responsibilities 
of Members of Congress and this Committee. If confirmed, I will work 
with the Office of Legislation and congressional Affairs to be as 
responsive as possible to all congressional inquiries in a timely and 
thoughtful way, regardless of party.
    Question 21. If confirmed, do you agree to provide briefings to 
Members of the HELP Committee, including Minority Members, if 
requested?
    Answer 21. If confirmed, I will work with my colleagues in the 
Office of Legislation and congressional Affairs to ensure any briefing 
requests from Members of the HELP Committee, regardless of party or 
position, are responded to in a timely and appropriate manner, whenever 
participation by the Office of Elementary and Secondary Education is 
requested or appropriate.
    Question 22. If confirmed, do you commit to answer promptly and 
completely any letters or requests for information from individual 
Members of the HELP Committee including request for Department of 
Education documents, communications, or other forms of data?
    Answer 22. If confirmed, I will work with the Office of Legislation 
and congressional Affairs, as appropriate, to be as responsive as 
possible to all congressional inquiries and requests for information in 
a timely and thoughtful way.
                             senator casey
    Question 1. Bullying and harassment affects nearly one in every 
three American students between the ages of 12 through 18, and research 
shows that it has adverse long-term consequences, including decreased 
concentration at school, increased school absenteeism, damage to the 
victim's self-esteem, and increased social anxiety. What do you think 
the Department's role should be in reducing bullying to ensure a safer 
learning environment for all students?
    Answer 1. Bullying or harassment of any student is unacceptable. If 
confirmed, I look forward to working with the Secretary and offices 
within the Department, including the Office of Special Education and 
Rehabilitative Services, and the Office for Civil Rights, to help 
ensure that students have safe learning environments and that 
applicable Federal laws prohibiting these forms of discrimination are 
enforced.
    Question 2. We know teachers are one of the most important factors 
that affect a child's learning, and we know that great teachers need 
great professional development to help them improve their craft. 
Working together we added language to Title II(A) of ESSA, much of it 
was in my bill the Better Educator Support and Training Act (the BEST 
Act), to make sure states and school districts implement evidence-based 
activities to strengthen the teaching profession and keep great 
teachers in the classroom. How should states ensure school districts 
are providing effective professional development for educators? As a 
former educator, were there any professional development opportunities 
you found particularly effective?
    Answer 2. Teachers are front and center in America's quest to 
provide a world class education to all of our students. Thus, more than 
ever before, professional development crafted for the state, district, 
and school level is critical. It is essential to use an evidence-based 
approach tailored to how each school will adapt to the changes brought 
about as a result of implementation of the individual ESSA plans for 
each state. At the same time evidence-based best practice can be 
coordinated, and more quickly replicated at the local level. Best 
practice identification and awareness clearly has an important place in 
the Department's future, as we move from the approval process to 
monitoring and the provision of technical assistance.
    At one point in my career as a School Superintendent we embarked on 
an ambitious program of professional development regarding the infusion 
of STEM education in our district's schools. Teachers and 
administrators of the district created a well-organized, coordinated, 
and engaging program. Thus, the end result was transformative by most 
accounts and successful particularly because it was tailored directly 
to our specific needs.
    Question 3. Do you think that private schools receiving Federal 
funding should be required to adhere to the same academic standards and 
accountability measures as public schools? Do you think there should be 
any distinction in these standards for private schools receiving 
Federal funds through vouchers, tax-credit scholarships, or education 
savings accounts?
    Answer 3. Since private schools do not currently receive Federal 
funding under Title I of ESEA, the law's requirements concerning state 
academic standards, assessments, and accountability systems do not 
apply to private schools. I believe the law is very clear on this 
point. Therefore, it is up to each state to determine whether or not 
private schools must adhere to the same academic standards and 
accountability measures as public schools in their state. Furthermore, 
if Congress were to authorize a program in which private schools 
received Federal funds through vouchers, tax-credit scholarships, or 
education savings accounts, then it would be up to Congress to decide 
whether or not Federal requirements concerning standards and 
accountability measures should apply.
    Question 4. One benefit of the increased flexibility in ESSA 
provided to states was the opportunity for stakeholder engagement. What 
role should teachers, parents, and other stakeholders play in 
developing state plans, district plans, and school improvement efforts?
    Answer 4. Once the ESSA plans are approved by the Department, the 
on-going education as to the contents of those plans needs to take 
place in every state across the country. Awareness meetings at the 
state, district, and school site level will be critical in assuring key 
stakeholders understand the vision in their plan. Their 
responsibilities for participation will also become clearer. Web based 
programs as well as appropriate social media, can assist in expediting 
the vital expansion of this new information. These same stakeholders 
will be essential, not only in initial changes, but evolutionary 
changes to the plans over time.
    Question 5. The educational achievement of youth with disabilities, 
as measured by high school graduate rates, has improved significantly 
since 2001, when they began to be included in accountability measures. 
Their graduation rate has improved by over 20 percentage points since 
that time. However, that rate is still 20 percentage points lower than 
the general population. When they leave their K-12 schooling their 
employment rate is less than half that of those without disabilities. 
Their post-secondary education participation is half that of their non-
disabled peers. The Every Student Succeeds Act specifically states that 
students with disabilities must have access to the general curriculum 
and the opportunity to graduate high school prepared for post-secondary 
education and employment. If you are confirmed as the Assistant 
Secretary for Elementary and Secondary Education, how will you work to 
improve the educational outcomes for students with disabilities who are 
attending our public schools?
    Answer 5. I am committed to upholding the provisions of the Every 
Student Succeeds Act to ensure that all children are provided an 
opportunity to receive a fair, equitable, and high-quality education, 
including children with disabilities and children with the most 
significant cognitive disabilities. The Office of Special Education and 
Rehabilitative Services (OSERS) has long partnered with OESE to ensure 
that ESEA implementation is conducted in a way that aligns with the 
Individuals with Disabilities Education Act (IDEA) and supports our 
offices' collective efforts to improve outcomes and results for every 
child with a disability. If confirmed, I will prioritize OESE's 
partnership with OSERS by ensuring that OSERS is involved in ESSA-
related matters pertaining to the education of children with 
disabilities. I am committed to continuing existing investments that 
are jointly sponsored and operated by OESE and OSERS--each of which is 
aimed at ensuring children with disabilities have the resources, 
supports, and opportunity to succeed in school and in the post-
secondary environment.
    Question 6. There have been a spate of on-line K-12 businesses 
providing educational instruction over the past five to 10 years; 
businesses such as K-12, Inc., Connections Academy, and Archipelago 
Learning The NCES reported there were over 315,000 students enrolled in 
full-time, on-line schools during the 2013-2014 school year. That year, 
over 2.7 million K-12 students took at least one course on-line. States 
and individual school districts have also begun to offer on-line 
instruction. While there are great cautions that need to be taken with 
on-line instruction, particularly around the issue of accountability, 
if such instruction is going to be offered, we need to ensure there is 
equal access to such instruction. Given the lack of high-speed internet 
in rural areas and a significant number of complaints filed with the 
Department of Justice regarding accessibility of on-line instruction 
for those with disabilities, how will your office monitor equal access 
to high quality on-line education while ensuring high quality?
    Answer 6. Thank you for your question, which I believe raises many 
important issues states and local school districts should be 
considering when evaluating innovative approaches to providing 
education, such as on-line instruction. As a general matter, the 
Federal Government is prohibited from interfering with state and local 
decisions concerning any particular program of instruction that is 
offered in their schools. At the same time, no student should be 
discriminated against or denied access to education. With regards to 
students with disabilities, Federal law prohibits discrimination, 
including inequitable access to educational programs. If confirmed, I 
would defer to the Department's Office for Civil Rights, to handle any 
complaints presented to me that alleged any such form of 
discrimination.
    Question 7. Reports as recent as the Brookings Institution 2017 
study continue to indicate that students of color continue to receive 
the harshest disciplinary punishments compared to white students. 
Students of color receive disciplinary punishments such as expulsion 
and suspensions at a rate up to three times that of their white 
counterparts. Loss of instructional time due to such disciplinary 
practices puts students at a significant disadvantage. How will you 
address the issue of disproportionate use of discipline that makes 
their academic success more difficult? Will you work to retain the 
existing guidance designed to reduce the disproportionate use of 
discipline for students of color?
    Answer 7. The Department is currently undergoing a review of all 
existing regulatory documents per Executive Order 13777. As such it 
would not be appropriate for me to comment while that review is 
underway. However as a general matter, if confirmed, I would work with 
the Office for Civil Rights (OCR) on issues such as this one.
    Question 8. The Assistant Secretary for Elementary and Secondary 
Education has responsibility for implementation of ESSA. ESSA, and its 
predecessor, NCLB, explicitly state that SEAs and LEAs are responsible 
for the academic achievement of students with disabilities. How will 
you work with the Office of Special Education and Rehabilitation 
Services to ensure students with disabilities have access to the 
general curriculum; are included in challenging instruction; have the 
opportunity to enroll in robust programs such as Perkins CTE courses, 
International Baccalaureate programs, AP course work, and ; and dual 
high school/college enrollment? How will you work to ensure SEAs and 
LEAs have the highest possible expectations and provide teachers and 
school leaders with the resources necessary to challenge and promote 
the academic advancement of all students, especially those with 
disabilities?
    Answer 8. As a former State Commissioner of Education, I have a 
strong record of working to ensure that all children, including 
children with disabilities, have access to quality curriculum, and have 
the opportunity to enroll in quality CTE programs, IB programs, AP 
courses and dual enrollment coursework. I am committed to ensuring that 
every child with a disability has access to these programs. Certainly, 
this includes a strong partnership with OSERS, but it also involves 
partnering with my colleagues in OCR to ensure that children with 
disabilities have access to and an opportunity to benefit from these 
programs. Secretary DeVos earlier this year published an op-ed that 
specifically discussed low-expectations for children with disabilities. 
I know that this issue is a priority for Secretary DeVos and for 
Assistant Secretary of OSERS Johnny Collett, and I look forward to 
working with them both to support states, school districts, educators, 
and school administrators to raise expectations for children with 
disabilities. The work the Department is doing through the Center on 
Great Teachers and Leaders is a great example of how OESE, OSERS, and 
other offices within the Department are working to raise expectations 
for all children, ensure that each child has an opportunity to succeed, 
and has access to high quality teachers.
                             senator warren
    Question 1. If confirmed, you will be in a position to influence 
the U.S. Department of Education's (``the Department'') annual budget 
request. The Department's Fiscal Year 2018 budget proposed cutting more 
than $9 billion in Federal education dollars, completely eliminating 
critical programs that help Massachusetts. This budget proposal was 
roundly rejected by Republicans and Democrats in both chambers of 
Congress. Do you believe the Federal Government should be investing 
more or less in education?
    Answer 1. I was not a part of the Fiscal Year 2018 budget, nor the 
development of the Fiscal Year 2019 budget, thus I cannot comment on 
the decisions that were made. If confirmed, I look forward to being a 
part of the conversations related to the best use of Federal dollars, 
including the use of evidence-based decisionmaking to inform choices 
that are being made.
    Question 2. If confirmed, will you do everything in your power to 
prevent harmful cuts to Federal education programs?
    Answer 2. If confirmed, I look forward to being a part of the 
conversations on how to use Federal resources to best support states, 
LEAs, schools, and teachers, to ensure all students have access to a 
high quality education and the opportunity to succeed.
    Question 3. The Department's Fiscal Year 2018 budget also proposed 
sending hundreds of millions more dollars to implement school 
privatization policies, such as private school vouchers.
        Question 3 (a). Do you believe Federal taxpayer dollars should 
        generally stay in public education?
        Question 3 (b). Should Federal taxpayer dollars fund private 
        school vouchers?
    Answer 3, (a), (b). I believe all students have the right to a 
high-quality education and that families should have a range of options 
to best meet the educational needs of their children irrespective of 
their zip code. I further believe that taxpayers, whether local, state, 
or Federal, expect their tax dollars to be both administered in 
accordance with the law, and used to support high-quality educational 
options for children.
    If a Federal private school voucher program were to be developed, 
it would be up to Congress to design the program and establish its 
parameters, as well as allocate resources for such a program. Should 
Congress choose to create and fund a Federal private school voucher 
program, I would, if confirmed, faithfully implement the law as written 
by Congress.
    Question 4. You and I both started our careers in public elementary 
school classrooms. As a former teacher, I believe strongly in the 
importance of teacher voices in local, state, and Federal 
decisionmaking.
        Question 4 (a). Do you agree?
        Answer 4. Yes.
        Question 4 (b).  What role do you think teachers should play in 
        the creation of state plans, district plans, and school 
        improvement efforts?
    I believe that all stakeholders should play a role in informing all 
levels of the system, including teachers, who will be on the front 
lines of implementing plans and improvement efforts.
    Question 5. The Every Student Succeeds Act (ESSA) rightly placed a 
strong emphasis on the importance of stakeholder engagement throughout 
the creation, adoption, and implementation of state plans and school 
improvement efforts. The law requires teachers, paraprofessionals, 
parents, and community and civil rights organizations, among others, to 
be consulted as states are drafting their plans. Under Secretary DeVos, 
however, the ESSA state plan template was amended to remove the 
requirement that states detail their stakeholder engagement efforts.
        Question 5 (a). Do you agree that meaningful stakeholder 
        engagement, as outlined in the law, is essential?
        Question 5 (b). Do you believe that states should detail their 
        stakeholder engagement efforts in state plans? If not, why not?
        Question 5 (c). How specifically do you intend to hold states 
        accountable for ensuring meaningful stakeholder engagement?
        Answer 5. The State Plan template, which states had the option 
        to use, aligns to the requirements in the law. The Secretary 
        has said she will only approve plans that comply with ESSA. To 
        date, approximately 35 plans have been approved. The remaining 
        plans have been submitted. Those plans will be approved if they 
        are in compliance with the requirements of ESSA.
    Question 6. Secretary DeVos has said that ``high-quality virtual 
charter schools provide valuable options to families, particularly 
those who live in rural areas where brick-and mortar schools might not 
have the capacity to provide the range of courses or other educational 
experiences...'' \7\ But according to a 2015 study, academic outcomes 
in math among students in virtual schools, who receive no in-person 
instruction, were equal to scores a student who had skipped 180 days of 
school would receive. Virtual school students' reading scores exhibited 
the effect of missing 72 days of school. \8\ Last year, a national 
study found that two-thirds of full-time virtual schools that have 
academic ratings received ``unacceptable'' results. The same report 
found that the average graduate rate for those schools is less than 
half of the average rate for public schools in general. \9\
---------------------------------------------------------------------------
    \7\  See https://www.npr.org/sections/ed/2017/02/04/513220220/
betsy-devos-graduation-rate-mistake
    \8\  See https://www.washingtonpost.com/news/answer-sheet/wp/2016/
12/14/virtual-school-operator-k12-faces-challenge-from-stockholders-
demanding-transparency/'utm--term=.ee2cbda5b171
    \9\  See https://www.npr.org/sections/ed/2015/02/02/382167062/
virtual-schools-bring-real-concerns-about-quality
---------------------------------------------------------------------------
        Question 6 (a). Given this evidence, if confirmed, will you 
        commit to using your position to encourage states to 
        strengthen, rather than weaken, charter school accountability, 
        particularly among virtual and for-profit charter schools?
        Question 6 (b). If confirmed, what, if anything, do you plan to 
        do to reign in the excesses of the for-profit, virtual charter 
        sector and prevent more students from being harmed?
        Answer 6 (b). I appreciate the results of the study you cited. 
        However, we should be mindful that the study examined results 
        from 2008 to 2013, and I believe that the study and other 
        information made available to school officials and parents are 
        resulting in continual improvements. I agree with the Secretary 
        that high quality virtual charter schools that use high quality 
        teachers can take advantage of the advances of technology and 
        can be used to provide valuable options to families.
        If confirmed, I will encourage state and local officials to 
        help strengthen the ability of these schools to provide a high 
        quality education, and if there are excesses that are 
        inconsistent with the law, I will work with the Inspector 
        General and other offices and agencies that may have 
        jurisdiction to enforce the laws in question.
    Question 7.  76 percent of private schools in the United States are 
affiliated with a religious group, and more than 80 percent of private 
school students attend a school with a religious affiliation. \10\ Many 
of these schools include religious instruction in their curricula and 
require students to attend religious services. And hundreds of these 
schools receiving taxpayer dollars have reportedly discriminated 
against vulnerable students, such as LGBTQ students. \11\
---------------------------------------------------------------------------
    \10\  See http://www.capenet.org/facts.html
    \11\  See https://www.huffingtonpost.com/entry/discrimination-lgbt-
private-religious-schools--us--5a32a45de4b00dbbcb5ba0be
---------------------------------------------------------------------------
    Question 7 (a). If confirmed, what specifically will you do to 
prevent schools that receive Federal education dollars, including 
publicly funded vouchers, from discriminating against LGBTQ students?
    Answer 7 (a). Schools that receive Federal dollars must comply with 
Federal law. The Office for Civil Rights (OCR) enforces Title IX which 
prohibits discrimination of all students, including LGBTQ students, on 
the basis sex. If confirmed, I will work closely with OCR on these 
issues and support the vigorous enforcement of civil rights laws.
    Question 7 (b). What will you do to prevent private schools that 
receive Federal education dollars from discriminating against students 
on the bases of race, sex, or disability?
    Answer 7 (b). Schools that receive Federal financial assistance 
must comply with Federal civil rights laws, including prohibitions 
under Title IX (sex), and Title VI (race), and discrimination based on 
disability. These protections are enforced by OCR. If confirmed, I look 
forward to working closely with OCR to ensure that institutions that 
receive Federal funds comply with these important statutory 
protections.
    Question 8. Many ESSA plans submitted this year did not clearly 
describe plans for school improvement, including how states will help 
and support schools identified for improvement. If confirmed, how will 
you help states and districts implement evidence-based improvement 
strategies with proven track records of success?
    Answer 8. As you note above, evidence-based interventions must be 
implemented in the schools that states identify consistent with the 
statutory requirements for this identification. States and school 
districts have flexibility to identify evidence-based interventions, as 
defined in ESSA, to meet the specific needs and contexts of schools and 
students. States and school districts will be best positioned to craft 
plans for school improvement that meet the needs of identified schools 
once those schools are identified. As noted above, the Department has 
made available a variety of resources to support selection and 
implementation of evidence-based improvement strategies with proven 
track records of success and will leverage these resources in 
supporting states and school districts. To the extent feasible, offices 
within the Department, such as the Institute of Education Sciences, 
that develop and publish reports and guides to summarize and provide 
information on evidence-based interventions will continue to do so and 
collaborate with program offices that administer formula and 
discretionary grant programs to take into consideration the needs of 
states and school districts. Further, offices in the Department that 
administer programs will continue to communicate with states and school 
districts to identify needs and provide support.
    Question 9. Per the Supreme Court decision Plyer v. Doe, schools 
are expected to serve all children regardless of immigration or 
citizenship status. \12\
---------------------------------------------------------------------------
    \12\  See https://www.ed.gov/about/offices/list/ocr/letters/
colleague-201405.pdf
---------------------------------------------------------------------------
        Question 9 (a). If confirmed, what specifically will you do to 
        ensure the right of all students, including undocumented 
        students, to a public education is protected?
    Answer 9 (a) As a result of the Supreme Court's ruling on Plyler v. 
Doe (1982), states and school districts are obligated to enroll 
students regardless of immigration status and without discrimination on 
the basis of race, color or national origin. 457 U.S. 202 (1982). 
Plyler makes clear that the undocumented or non-citizen status of a 
student (or his or her parent or guardian) is irrelevant to that 
student's entitlement to an elementary and secondary public education. 
If confirmed, I will work closely with OCR, which enforces Title VI of 
the Civil Rights Act of 1964 to protect every student's right to access 
his or her education free from discrimination based on race, ethnicity, 
or national origin, consistent with Plyler V. Doe.
    Question 10. According to a 2015 study, a 10 percent increase in 
per-student K-12 spending increased adult wages by 7 percent, an effect 
that was even larger for low-income students. \13\ Similarly, a 2016 
study found that greater state spending on low-income students 
dramatically improved student learning in reading and math. \14\ 
Unfortunately, Title I schools generally receive less state and local 
funding than non-Title I schools. That is why Title I includes a 
``supplement, not supplant'' requirement--a critical civil rights 
component of the law. Despite the long history of the ``supplement not 
supplant'' requirement, however, serious funding inequities remain, not 
only between districts but also within them. ESSA for the first time 
contains a statutory directive around how districts must demonstrate 
compliance with the ``supplement, not supplant'' provision. ESSA states 
that districts must use a methodology to allocate state and local funds 
to each Title I school that ensures each such school receives all the 
state and local funds it would otherwise receive if it were not a Title 
I school.
---------------------------------------------------------------------------
    \13\  See https://academic.oup.com/qje/article-abstract/131/1/157/
2461148'redirectedFrom=fulltext
    \14\  See http://www.nber.org/papers/w22011
---------------------------------------------------------------------------
        Question 10 (a). If confirmed, how specifically will you 
        enforce the language in ESSA requiring Title I Part A funds to 
        supplement state and local funds rather than supplant them?
        Question 10 (b). What test will you use to ensure states and 
        districts are complying with this provision in the law and 
        adequately demonstrating compliance?
        Question 10 (c). How will you ensure that Title I funds are 
        truly providing the supplemental supports necessary in high-
        poverty schools, and not just filling in shortfalls in state 
        and local funding?
    Answer 10. I am keenly aware of the longstanding and important 
fiscal compliance requirements of ESEA through my experiences as a 
Superintendent of Schools in Martin County and as the Florida State 
Commissioner of Education, including supplement, not supplant. I 
particularly appreciate the flexibility that Congress provided in ESSA 
by moving away from requiring districts to identify each individual 
cost and service funded with Title I as supplemental, toward a more 
holistic approach that looks at the overall methodologies by which 
districts distribute funding. Ultimately, I believe this will ensure 
Federal Title I dollars are truly supplemental, while not discouraging 
districts from investing in innovative approaches to supporting 
students in high-poverty schools. However, it would not be appropriate 
for me to speculate on how I would implement or enforce these 
requirements until I am confirmed and have an opportunity to consult 
with the Secretary and staff in the Office of Elementary and Secondary 
Education.
    Question 11. During your confirmation hearing, in response to one 
of my questions, you unambiguously committed to making sure every state 
follows the ESSA provision requiring that the performance of all groups 
of students be included in a state's accountability system. I 
appreciate your firm and clear commitment, particularly since the 
Department has approved state plans--like Florida's, Maryland's, and 
New Mexico's--that flout this requirement.
    Question 11 (a). If confirmed, will you stop the Department from 
approving plans that do not meet this essential element of ESSA?
    Answer 11. The Secretary has said she will only approve plans that 
comply with ESSA. To date, approximately 35 plans have been approved 
having met this requirement. The remaining plans have been submitted. 
Those plans will be approved if they are in compliance with the 
requirements of ESSA. Should I be confirmed, I look forward to working 
with the Secretary on any remaining plans. I commit to you that I would 
recommend approval of only plans that comply with the law.
    Question 12. I fought with Senator Cory Gardner (R-CO) for ESSA's 
bipartisan data transparency provisions to help us better understand 
how schools are serving all kids. Because of our amendment, states must 
provide to the public information required under ESEA section 
1111(h)(1)(c) in an easily accessible and user-friendly manner that can 
be cross-tabulated by student subgroup. \15\
---------------------------------------------------------------------------
    \15\  ESEA section 1111(g)(2)(N)
---------------------------------------------------------------------------
    Question 12 (a). If confirmed, will you ensure that all states 
comply with this provision in ESSA?
    Question 12 (b). Will you commit to providing my office with a 
state-by-state update of how exactly states are complying with this 
provision?
    Answer 12. If confirmed, I would commit to implementing the laws as 
authorized by Congress. In addition, I believe strongly in the 
necessity of giving parents useful, accessible information regarding 
the performance of their child's school, which the report cards 
provide. So yes, I commit to helping ensure that all states comply with 
this provision in ESSA.
    However, I believe it would be premature to commit now to a 
schedule for providing state-by-state updates to your office as I am 
not yet aware if or when the Department will have this information 
available. Should I be confirmed, I would be happy to revisit this 
question.
    Question 13. There is an educational achievement gap in this 
country between white students and students of color. There is also 
unequal access to educational resources. \16\ I believe these gaps in 
achievement and resources are largely due a history of racial 
discrimination and unequal access to opportunity in this country.
---------------------------------------------------------------------------
    \16\  See https://nces.ed.gov/nationsreportcard/pubs/studies/
2015018.aspx;https://www.brookings.edu/articles/unequal--opportunity--
race--and--education/http://www.usccr.gov/pubs/2018-01-10-Education-
Inequity.pdf.
---------------------------------------------------------------------------
        Question 13 (a). Why do you believe that these gaps persist?
        Question 13 (b). In your view, what is the Federal Government's 
        role in closing these gaps?
        Question 13 (c). Please describe your view of the Federal 
        Government's civil rights imperative when it comes to the 
        educational opportunities of students of color.
        Question 13 (d). If confirmed, how will you use your position 
        to address these gaps and inequalities?
    Answer 13 (a). It is most important for us to discuss how we as a 
country can help every single child to have equal access to the quality 
education they deserve. The gaps that may exist and may otherwise 
persist may have been the product of the narrow thinking in the past--
that reform to address gaps well had to be filled with many 
requirements and prescriptions. In the past efforts, there was not 
enough flexibility provided to help state and local educators drive 
innovation and true reform so that every student's learning needs are 
addressed. The role of the Federal Government is to help state and 
local governments facilitate innovation and improvement, and not stand 
in its way.
    Answer 13 (b). Our imperative is to ensure equal access to a 
quality education for every student, and parents should have the right 
to have a strong voice in how their child is educated.
    Answer 13 (c). Government exists to protect those rights, and make 
sure that no one is discriminated against in pursuing those rights.
    Answer 13 (d). If confirmed I will address these issues by working 
with parents, students, and state and local leaders to help ensure that 
everyone has an appropriate opportunity for quality education.
    Question 14. In March 2017, Secretary DeVos eliminated a $12 
million voluntary competitive grant program designed to assist school 
districts attempting to increase socioeconomic diversity in their 
schools, because, according to the Department, the program was not a 
good use of taxpayer money.
        Question 14 (a). Do you agree with Secretary DeVos that this 
        program was a waste of Federal tax dollars?
        Question 14 (b). Do you believe the Federal Government has a 
        role to play in fostering and promoting school diversity in our 
        increasingly diverse nation and world?
        Question 14 (c). If so, how will you use your position to 
        improve school diversity across the country if you are 
        confirmed?
        Answer 14 (a). I cannot comment on decisions the Department 
        made to which I was not a party as I do not have all the 
        relevant facts. What I do know is when the Department makes 
        choices among potential programs for the limited amount of 
        Federal funds available, there are often tough choices that 
        have to be made to help ensure that taxpayer funds are spent 
        efficiently and effectively.
        Answer 14 (b). Providing all students with meaningful choices 
        to receive high quality education no matter what their economic 
        situation ensures the most appropriate means for diversity that 
        helps all students achieve to their full potential. It is most 
        important for us to discuss how we as a country can help every 
        single child have equal access to the quality education they 
        deserve.
        Answer 14 (c). If confirmed, I look forward to improving 
        diversity in a manner that takes into account the interests of 
        all students.
    Question 15. Secretary DeVos has been noticeably absent from 
Congress since her confirmation. Several scheduled hearings and 
appearances have been postponed or canceled, and the Secretary has not 
appeared before the Senate HELP Committee since her confirmation 
hearing.
        Question 15 (a). How do you plan to communicate with Congress 
        in your role as Assistant Secretary?
        Answer 15 (a). If confirmed, I will work with my colleagues in 
        the Office of Legislation and congressional Affairs in 
        responding to any congressional requests related to the Office 
        of Elementary and Secondary Education.
        Question 15 (b). Will you commit to substantively responding to 
        inquiries and requests from all Committee Members, including 
        those in the minority?
        Answer 15 (b). If confirmed, I will work with my colleagues in 
        the Office of Legislation and congressional Affairs to ensure 
        any requests related to the Office of Elementary and Secondary 
        Education from Members of the HELP Committee regardless of 
        party or position are responded to in a timely and appropriate 
        manner.
        Question 15 (c). Please discuss your views on the role of 
        Congress in conducting oversight of the Department of 
        Education.
        Answer 15 (c). I appreciate and respect the oversight 
        responsibilities of Members of Congress and this Committee. If 
        confirmed, I will in my role work with the Office of 
        Legislation and congressional Affairs to be as responsive as 
        possible to all congressional inquiries in a timely and 
        thoughtful way.
    If you have any questions, please contact Josh Delaney in my office 
at (202) 224-4543.
                             senator hassan
    Question 1. Throughout your career you have been generally 
supportive of school voucher programs. We know these programs lack the 
same accountability as public schools, including charter schools and 
that they move public dollars away from the public school system. Which 
can in turn leave already struggling schools further behind. As we 
discussed in our conversation in my office, we agree that every family 
should be able to rely on their neighborhood school to provide a 
quality public education.
        Question 1 (a). How do you reconcile your support for all 
        neighborhood schools with the fact that an expansion of voucher 
        systems would inherently take away funding from these schools?
        Answer 1 (a). I do not agree with your premise that expansion 
        of vouchers inherently takes funding away from neighborhood 
        schools. I support a range of educational options for children 
        and families to best meet their needs including traditional 
        public schools, charter schools, magnets, as well as private 
        schools, all of which are types of neighborhood schools, and 
        none of which inherently take funding away from one another.
        Question 1 (b). Secretary DeVos supports expanding voucher 
        programs, included a recent provision in the tax bill that 
        expanded the tax benefits afforded by 529 savings plans for 
        college to private K-12 school tuition. If confirmed, would you 
        support the expansion of Voucher programs?
        Answer 1 (b). I support providing greater choice to parents in 
        making the best decisions regarding the education of their 
        children. However, as I stated in my nomination hearing, choice 
        is not limited to vouchers. Choice can mean any number of 
        schools; traditional public, private, charter, magnet, virtual, 
        etc. Any new Federal voucher program would be created, 
        designed, and funded by Congress.
    Question 2. During our conversation in my office, you said you had 
read the recent Government Accountability Office (GAO) report, 
``Private School Choice: Federal Actions Needed to Ensure Parents are 
Notified About Changes in Rights for Students with Disabilities'' and 
that you believe that parents should know what they are giving up 
before opting into a voucher program, something the report says that 
schools frequently fail to do. The Secretary of Education has two broad 
Secretarial authorities under law, 20 USC 1221e-3 (``to make, 
promulgate, issue, rescind, and amend rules and regulations governing 
the manner of operation of, and governing the applicable programs 
administered by, the Department''); and 20 USC 3474 (``to prescribe 
such rules and regulations as the Secretary determines necessary or 
appropriate to administer and manage the functions of the Secretary or 
the Department.'').
    Question 2 (a). If confirmed, would you work with the Secretary to 
require that states disclose to students and their families when they 
give up their rights under the Individuals with Disabilities Education 
Act (IDEA) when using a voucher to attend a private school?
    Answer 2 (a). I am concerned about any parent not having the 
information they need to make well informed decisions about their 
child's education. If confirmed, I look forward to working with the 
Secretary and the Office of Special Education and Rehabilitative 
Services to determine how the Department can best support state-
developed and operated voucher programs, empower parents, and respond 
to the recommendations from the GAO report.
                                 ______
                                 
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]

                                   
</pre></body></html>
